        Howard University
 Needs To Improve Internal Controls
Over Management of NSF Grant Funds



       National Science Foundation
       Office of Inspector General

             March 31, 2006
             OIG 06-1-008
            XXXXXXXXXXXX

           XXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXX
                            EXECUTIVE SUMMARY
This report provides the results of the Office on Inspector General’s (OIG) audit of the
adequacy of Howard University’s (Howard) system of internal controls to manage,
account for, and monitor National Science Foundation (NSF) grant funds in accordance
with Federal and NSF grant requirements. Specifically, we reviewed five grants with
total NSF funding of $10 million and required cost sharing commitments of $9.9 million.
This represented 53 percent of the total NSF funding of $18.8 million for 35 active grants
as of June 30, 2004.

Howard is a private university and its largest revenue source is the Federal Government.
The University, located in Washington, D. C., was chartered by the U.S. Congress in
1867. Howard has grown to 12 schools and colleges, including a teaching hospital, and
has almost 1600 faculty members and approximately 11,000 students. In fiscal year
2004, over $235 million of Howard’s operating budget of $734 million was provided
from a direct Federal Government appropriation. Additionally, the University received
over $179 million in direct and pass-through Federal awards, of which $44.5 million was
to support research and development (R&D) activities. Of the R&D funding, the
Department of Health and Human Services was the largest contributor at $28 million.
NSF was the second largest sponsor and provided $5.7 million in direct and pass-through
grants.

Howard has undertaken various initiatives over recent years to enhance its Federal grants
management enterprise. However, the University needs to do more to establish and
maintain a system of sound internal controls to ensure NSF grant funds are being used for
the purpose it is granted and is spent for allowable costs. We found that the University
did not have comprehensive policies, procedures, techniques, and mechanisms to
effectively manage, account for, and monitor NSF grant funds. As a result, for the five
grants reviewed, with total funding of $10 million, we found inadequate Howard internal
controls over (a) $12.3 million of cost sharing claimed on NSF awards, (b) $2.9 million
of NSF funds passed-through to subawardees, (c) faculty salary charges of $176,000, and
(d) stipend payments of $109,000 made to trainees.

Specifically, we were unable to verify whether the $12.3 million of Howard cost sharing
claimed from 2000 to 2004 on the five grants audited benefited the intended NSF
projects. The University did not separately track, and therefore, could not support $6.9
million of Howard matching funds. Also, it did not have adequate documentation to
support another $5.4 million of claimed cost sharing provided by seven subawardee
organizations. Cost sharing shortfalls could have had a detrimental effect on the NSF
programs by limiting project scope and/or compromising the achievement of grant
objectives.

Additionally, on the five grants, Howard had not adequately managed and monitored $2.9
million, or 80 percent of total NSF funding passed-through to seven subrecipient
organizations. We found that Howard (a) made processing errors involving incorrect
amounts listed on subaward agreements totaling $117,764, (b) did not establish legal


                                            i
contractual requirements to secure $5.4 million of subrecipient cost sharing and $2.3
million of participant support/trainee costs, and (c) lost the opportunity to ensure the
timely use of $531,596 of subrecipient funding to achieve grant objectives. As a result,
Howard could not ensure that NSF grant funds had been spent in compliance with NSF
and Federal requirements and effectively utilized for authorized grant purposes.

Howard also needed to improve oversight of faculty salary costs claimed on NSF grants
to ensure compliance with Federal cost principles and NSF requirements. Review of
fiscal year 2004 faculty costs of $176,548 on the five audited grants disclosed the lack of
adequate documentation to support the faculty salary computations. Staff did not have
employee contracts documenting their base salaries and the percentage of effort planned
to be devoted to NSF grants was not clearly specified. In addition, Howard’s labor effort
reporting system did not generate accurate after-the-fact activity reports to support
$141,468 or 80 percent of the faculty salary costs.

Lastly, the University lacked sufficient documentation in its accounting records to
support $109,700 of stipends paid in FY 2004 to trainees from outside organizations.
Howard did not have an organized system to track the purpose of the various stipends
paid and receipts were not required for $500 travel stipends paid to trainees, estimated to
total as much as $30,000 annually. As a result, there was a lack of sufficient
documentation to support that the stipend payments were valid NSF grant costs.

Lack of written policies and procedures at Howard was the primary factor contributing to
the control weaknesses. Howard had not defined key areas of authority and responsibility
and had not established appropriate lines of reporting for the various University offices
responsible for carrying out the Federal grants management enterprise. In the absence of
such written procedures to guide Howard employees in their day-to-day operations,
University staff, with Federal grant expertise, were not reviewing NSF grant charges to
ensure compliance with Federal and NSF requirements. While Howard had issued some
policies and procedures pertaining to some key aspects of Federal grants management
over the years, an internal control process was not established for monitoring and/or
evaluating administrative actions to ensure that established procedures were being
implemented and effectively achieving sound Federal grants management objectives.

We recommended that Howard institute a program for monitoring and overseeing its NSF
grant management processes. Most importantly, the University needed to establish
comprehensive and current written policies and procedures for ensuring compliance with
Federal and NSF grant requirements and to designate a high-level Howard official to be
held accountable for such a program. Also, specific recommendations were made to
improve Howard controls and accountability over NSF cost sharing obligations,
subawards, faculty salary charges, and stipend payments to non-Howard trainees.
Finally, we recommended that Howard have an independent evaluation performed to
validate that timely and appropriate corrective actions are implemented to address all
audit report recommendations. If such an evaluation discloses that Howard has not
implemented actions to establish effective management control over NSF grant funds, we




                                             ii
recommended that NSF withhold additional funding until appropriate corrective actions
are instituted.

A draft audit report requesting comments was issued to Howard University. In general,
the University agreed with the audit findings and recommendations and appears to have
initiated appropriate and responsive corrective actions in most instances to improve its
internal control processes over NSF grant funds. Specifically, Howard states that it has
issued new written policies and procedures for managing and administering its Federal
grant programs; reorganized its grants management enterprise under a new cabinet-level
Vice President for Research and Compliance with the full authority to enforce strict
compliance with all Federal and NSF grant requirements; and hired a new Chief
Financial Officer tasked with review and improvement of the University’s internal
control mechanisms. Also, as part of the reorganization of its Research Administration
Enterprise, Howard indicated plans to establish a Research Compliance Office to provide
oversight and direction for all compliance aspects of the University’s Federal grants
management process.

However, Howard needs to establish a formal process to ensure timely and appropriate
implementation of corrective actions to address weaknesses noted in prior internal and
external audit reports and/or other evaluations. Such a process is imperative to insure
effective University implementation of audit recommendations contained in this audit
report as well as future evaluations and audits. In this regard, Howard should develop
such procedures as part of its current efforts to articulate the specific roles and
responsibilities of the newly proposed Research Compliance Office. Of equal
importance, NSF should closely monitor Howard’s implementation of the audit
recommendations to ensure that the University’s new internal control processes result in
the proper and effective management of NSF grant funds.




                                           iii
                            ACRONYMS

AY      Academic Year
A-133   U.S. Office of Management and Budget Circular A-133
A-21    U.S. Office of Management and Budget Circular A-21
COSO    Committee of Sponsoring Organizations
ERS     Effort Reporting System
FY      Fiscal Year
DGA     NSF’s Division of Grants and Agreements
DIAS    NSF’s Division of Institution and Award Support
OIA     Howard’s Office of the Internal Auditor
OMB     U.S. Office of Management and Budget
ORA     Howard’s Office of Research Administration
PI      Principal Investigator
PR      Howard’s Personnel Recommendation Form
RFA     Howard’s Office of Restricted Funds Accounting
R&D     Research and Development
STEM    Science, Technology, Engineering, and Mathematics




                                  iv
                         TABLE OF CONTENTS
                                                                          Page

EXECUTIVE SUMMARY                                                            i

INTRODUCTION

     Background                                                              1

     Objectives, Scope, and Methodology                                      1

FINDINGS AND RECOMMENDATIONS

  1. Howard Needs To Improve Internal Controls Over Federal                  4
     Grant Costs

  2. Howard Needs a System to Identify, Account for, Monitor,               12
     and Report Cost Sharing

  3. Subaward Management and Monitoring Need To Be Improved                 19

  4. Support for Faculty Salary Costs Needs To Be Improved                  30

  5. Payment of Stipends to Non-Howard Trainees Needs Improvement           40

APPENDICES

     Appendix A:    Schedule of Claimed Cost Sharing for FY 2000-2004       43

     Appendix B:    Schedule of Questioned FY 2004 Faculty Salary Costs     44

     Appendix C:    Questioned FY 2004 Student Stipends                     46

     Appendix D:     Howard Comments to Draft Report                        47




                                        v
                                  INTRODUCTION
BACKGROUND
Howard University (Howard), located in Washington, D.C., is a private university
chartered by the U.S. Congress in 1867. Howard has grown to 12 schools and colleges,
including a teaching hospital. Over 1100 of the 1559 faculty members are in professorial
positions and 87 percent of faculty have degrees from national research universities. In
2004, the student enrollment was nearly 11,000 and 2234 degrees were awarded at the
undergraduate, graduate, and professional levels.
Howard’s largest revenue source is the Federal Government. In Fiscal Year (FY) 2004,
over $235 million of Howard’s operating budget of $734 million was provided from a
Federal appropriation administered through the U. S. Department of Education. Howard
also received over $179 million in direct and pass-through Federal awards; $44.5 million
of this amount supported research and development (R&D) activities. The Department of
Health and Human Services is the largest Federal sponsor of Howard’s R&D programs
and provided $28 million in FY 2004. NSF was the second largest R&D sponsor in FY
2004, providing over $5.7 million via 35 direct awards and several subawards to Howard.
Howard’s responsibilities for award administration are divided generally by pre-award
and post-award functions. The Office of Research Administration (ORA) assists the
Principal Investigators (PI) in the processing and submission of grant proposals to the
sponsoring agencies, negotiates subaward agreements, ensures compliance with the
sponsor’s policies, is an administrative point-of-contact for the PI and the sponsor, and is
a repository of grant records. ORA has a staff of three to four Research Administrators
and is directly supervised by the Associate Vice Provost for Research.
The Office of Restricted Funds Accounting (RFA), within the Office of the Comptroller,
is responsible for the financial administration, accounting, and reporting for all externally
sponsored grants and contracts. The RFA grant accountants establish the award accounts,
process the spending documents, and perform periodic financial reconciliation of the
award accounts in the University’s accounting system. About half of the nearly 20 grant
accountants are assigned responsibility for specific awards. Other departments, including
the Accounts Payable and Payroll offices in the Office of the Comptroller, also support
Federal awards. The Comptroller reports to the Senior Vice-President and Chief
Financial Officer-Treasurer.

OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to evaluate whether:

1. Howard’s system of internal controls were adequate to properly manage, account for,
   and monitor its NSF award funds in accordance with Office of Management and
   Budget (OMB) and NSF grant requirements.




                                             1
2. Howard costs charged on NSF grants are allowable, allocable, and reasonable in
   accordance with Federal cost principles and NSF award terms and conditions.

The five NSF grants selected for review had cumulative funding of $10,007,752;
representing 53 percent of total NSF funding of $18,795,119 for the 35 active awards as
of June 30, 2004. These five grants were selected based on their large monetary value
and other high risk factors: including significant subaward funding and cost sharing
requirements. Four of these five audited grants had required cost sharing commitments,
which totaled $9,912,947. For these grants, we reviewed the NSF award jackets and
interviewed appropriate NSF program officials. These five awards were funded by
NSF’s Directorate for Education and Human Resources. Three were awarded to increase
minority representation and graduation in science, technology, engineering, and
mathematical fields (STEM); one award was to fund teacher training in STEM subjects;
and the fifth award was to conduct summer institutes to increase cultural competence in
evaluation techniques. The awards are anticipated to incur a total of $12.7 million in
costs upon their expiration: four awards expired in 2005 and one continues until 2008.
The following chart contains information about the awards as of June 30, 2004:

                  Cumulative Award Amounts as of June 30, 2004

   NSF Award               Grant Title                 NSF Funding       Required Cost
                                                                           Sharing
HRD 09909040          Howard University
                      Science, Engineering
                      and Mathematics
                      (HUSEM) Program                       $3,004,408         $1,425,000
HRD 0000273           Washington Baltimore
                      Hampton Roads Alliance
                      for Minority Participation
                      (WBHR-AMP)                            $4,000,000         $7,952,496
ESI 0102295           Developing Teacher
                      Leaders in Middle and
                      High School Science                   $1,155,543            $77,400
REC 0229308           Mathematics and
                      Science Evaluation
                      Training Institute for
                      Mid-Level Experienced
                      Evaluators
                                                             $718,231                    $0
HRD 0302788           Howard/UTEP Alliance
                      for Graduate Education
                      and the Professoriate
                      Project                               $1,129,570           $458,051



Total                                                      $10,007,752         $9,912,947



                                                   2
In evaluating the adequacy of Howard’s internal controls over Federal grants
management, we reviewed Howard’s written administrative and financial policies and
procedures to account for and safeguard NSF grant funds, including its cost sharing
commitments. In addition, we interviewed appropriate Howard officials to gain an
understanding of the actual management processes in place to administer and monitor
NSF grant funds to evaluate compliance with Federal and NSF grant requirements.

For the 5 audited NSF grants, we verified that the expenditures in Howard’s accounting
records and financial reports supported the total grant expenditures of $7,108,732 as of
June 30, 2004 reported to NSF in its Federal Cash Transactions Report. For our detailed
review of transactions, we selected costs from FY 2004 expenditures of $2,844,994
incurred for the period from July 1, 2003 to June 30, 2004. During our survey work, we
identified the largest categories of costs claimed on the 5 audited grants and evaluated
Howard’s internal control processes over these costs and performed limited transactions
testing.

Based on the weaknesses identified during our survey, the audit verification phase was
directed at a detailed evaluation of subaward costs, salary costs, and student stipends for
non-Howard trainees. Based on the high risk of problems identified from our survey, our
transactions testing included a review of 100 percent of FY 2004 subaward costs and
faculty salary payments on the five audited grants. However, we judgmentally sampled
professional and administrative salary payments and student stipends due to the large
number of small payments in these cost categories. Our review of financial transactions
was extended to other periods if a significant deficiency was noted. In total, the dollar
value of transactions tested during our audit verification phase was $1,343,936, which
accounted for 47 percent of total FY 2004 costs claimed on the five audited NSF grants.
Based on our judgmental sampling plan, questioned costs in this report may not represent
total costs that may have been questioned had all expenditures been tested.

Furthermore, we reviewed Howard cost sharing commitments on the 5 audited NSF
grants as of June 30, 2004. While the NSF grant agreements required $9,912,947 of cost
sharing from 2000 to 2004, Howard actually claimed costs of $12,290,575. During our
audit, we evaluated if the $12,290,575 in claimed cost sharing was verifiable from the
university’s records and were claimed in compliance with Federal and NSF grant
requirements. Of this amount, Howard subrecipients provided $5,437,386 or 44 percent.
As such, we performed limited on-site reviews at two Howard subawardees, Bowie State
University and Virginia State University, to evaluate cost sharing procedures and
available documentation to support the NSF cost sharing amounts claimed of $1,000,000
and $180,000, respectively.

We conducted our audit in accordance with the Comptroller General’s Government Audit
Standards and included such tests of accounting records and other auditing procedures, as
we considered necessary, to fully address the audit objectives.




                                             3
                      FINDINGS AND RECOMMENDATIONS
1. Howard Needs to Improve Internal Controls Over Federal Grant Costs

Contrary to OMB requirements, Howard has not established and maintained a system of
internal control to provide reasonable assurance that $18.8 million of NSF grant funds for
35 grants active as of June 30, 2004 was being used for the purpose it was granted or was
spent for allowable costs. We found that Howard did not have comprehensive policies,
procedures, techniques, and mechanisms to effectively manage, account for, and monitor
NSF grant funds. This occurred because Howard efforts undertaken over the years to
improve its grant management processes had not been carried out thoroughly and
completely. As a result, for the 5 NSF grants audited, we could not determine whether
Howard actually provided $12.3 million of cost sharing claimed. Also, without adequate
procedures to manage and oversee $2.9 million of subawards, Howard did not have
adequate subaward provisions flowing-down NSF grant requirements and continued to
award additional annual funding when prior year monies had not been timely expended.
Also, inadequate internal controls resulted in questioned Fiscal Year (FY) 2004 faculty
salary costs of $91,877 or 52 percent of the total faculty salaries claimed on the five
audited awards. Because these shortcomings would affect other NSF and Federal grant
funds, there was increased risk that the total $44.5 million of Federal R&D funds
received by Howard in FY 2004 was similarly not adequately managed.

Internal Control Requirements

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
With Institutions of Higher Education, Hospitals, and Other Non-profit Organizations, 1
requires entities receiving Federal awards to establish and maintain internal controls that
are designed to reasonably ensure compliance with Federal laws, regulations, and
program compliance. Further, OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations,2 defines internal control as “a process,
effected by an entity’s management and personnel, designed to provide reasonable
assurance regarding the achievement of objectives in the following categories:
(1) Effectiveness and efficiency of operations; (2) Reliability of financial reporting; and
(3) Compliance with applicable laws and regulations.”




1
         Section .21 of OMB Circular A-110, requires that a grantee’s financial management system
provide for “Effective control over and accountability for all funds, property, and other assets . . . Written
procedures for determining the reasonableness, allocability, and allowability of costs in accordance with the
provisions of the applicable Federal cost principles and terms and conditions of the award.”
2
        Section 105 of OMB Circular A-133, provides a definition of internal controls and Part 6 of the
Compliance Supplement addresses Internal Control.



                                                      4
In September 2004, the Committee of Sponsoring Organizations (COSO)3 reaffirmed that
businesses and other entities should use the guidance provided in its Internal Control –
Integrated Framework as the basis for establishing internal controls and providing the
evaluation tools needed for assessing their control systems. Since its issuance in 1992,
this Framework has long served as an industry standard to assess and enhance an
organization’s internal control systems. Internal control is considered a major part of
managing an organization and comprises the plans, methods, and procedures used to meet
missions, goals, and objectives. In short, internal control helps the management of
non-Federal entities to achieve desired results through effective stewardship of public
resources. Internal control is not one event, but a series of actions and activities that
occur throughout an entity’s operations on an ongoing basis. Management sets the
objectives, puts the control mechanisms in place, and monitors and evaluates whether the
control is operating as intended. People are what make internal control work, thus
sufficiently trained personnel in an organization and clear job descriptions and
responsibilities are critical elements of a successful internal control program.

Howard Needs to Improve its Organizational Structure and Establish Comprehensive
Policies and Procedures

Contrary to OMB requirements, we found that Howard has not established effective
internal control for managing its NSF grant funds. Howard does not have an effective
organizational structure for administering grant funds and/or comprehensive and current
policies and procedures to ensure grant funds are expended in accordance with Federal
and NSF requirements.

Specifically, Howard did not have an effective organizational structure to oversee and
manage NSF grant funds. The University lacked written procedures defining key areas of
authority and responsibility and establishing appropriate lines of reporting for the various
Howard offices responsible for carrying out Federal grants management. While Howard
had issued policies and procedures pertaining to some key aspects of Federal grants
management over the years, there was no established internal control process for
monitoring and/or evaluation to ensure the procedures were being implemented and were
effectively achieving sound Federal grant management objectives.

Consequently, we found that Howard personnel in RFA and ORA were not sure who had
responsibility for reviewing claimed NSF grant costs and ensuring that those costs were
reasonable, allocable, and allowable under Federal cost principles and the NSF award
agreements. While the Comptroller believed that RFA had this overall responsibility,

3
         The Committee of Sponsoring Organizations (COSO) of the Treadway Commission is a private
sector organization dedicated to improving the quality of financial reporting through business ethics,
effective internal controls, and corporate governance. It was formed in 1985 to study fraud in financial
reporting and to make recommendations to reduce its incidence. The COSO study took more than 3 years
and included extensive research and discussions with corporate leaders, legislators and regulators, auditors,
academics, outside directors, lawyers, and consultants. While its use it not mandated by Federal grant
requirements, it is an industry standard and framework by which public, private, and non-profit
organizations can implement effective internal control systems.



                                                      5
RFA management and staff themselves stated that it was not their assigned role.
Consequently, RFA grant accountants did not perform such reviews because they stated
that it was the responsibility of the Principal Investigator (PI) and/or their respective
Departments. However, our discussions with these Howard officials disclosed that they
were not familiar with the specific requirements of the Federal cost principles and
accordingly, were not performing such reviews.

Similar problems were noted in discussions with ORA staff. For example, ORA staff
informed us that it was RFA’s responsibility to review subrecipient OMB Circular A-133
audit reports and render a management decision on audit findings in order to determine
Howard actions required to remediate any risk from such reported deficiencies.
However, RFA staff stated it was not their assigned responsibility and did not perform
such reviews. Thus, without formal written procedures clearly defining responsibilities,
we found that no Howard office was reviewing subawardee A-133 audit report findings
from August 2004 to March 2005.

Concomitantly, Howard has never issued complete and comprehensive written policies
and procedures to define the internal control techniques and mechanisms to properly
manage and monitor the expenditure of Federal grant funds. Our audit identified that in
1990, ORA issued an Interim Manual for Research and Other Sponsored Program “to be
used pending publication of the official version.” An official version was never issued
and according to ORA officials, the Interim Manual is outdated and an update was
initiated in the summer of 2004. As of May 2005, officials stated that progress has been
slow because it is difficult obtaining review and comments from all cognizant Howard
officials.

Furthermore, Howard lacks an effective system to ensure that the problems in its grant
management operations that were surfaced in audits and other reviews were promptly
resolved. We found that Howard had not always taken actions to effectively correct the
deficiencies identified during its annual OMB Circular A-133 audits. As a result, for the
5-year period from 2000 to 2004, three reports expressed a “qualified opinion” on
Howard compliance on major Federal programs because of continued material
weaknesses. Our analysis of these audits disclosed repeated Howard internal control
weaknesses over the 5-year period as follows:

                           OMB Circular A-133 Audit Findings

                                       FY 2000    FY 2001   FY 2002    FY 2003    FY 2004

Qualified Opinion on Major                           X          X                    X
Program Compliance
Subrecipient Monitoring                   X          X          X          X         X
Time & Effort Reporting                   X          X          X          X         X
Equipment Management                      X          X          X          X         X
Inaccurate indirect and fringe rates      X          X          X          X         X




                                              6
The repeated internal control findings in the above areas clearly indicate that Howard did
not have an effective process for correcting the weaknesses identified. Similarly, we
found that Howard management had not fully implemented promised corrective actions
on recommendations pertaining to subaward management from an audit of a NSF grant
performed by Howard’s Office of Internal Auditor (OIA) in August 2003.4 Specific
discussion of the OIA audit can be found in Finding 3 (page 26).

Consequences of Inadequate Internal Controls

As a result of the lack of adequate internal control processes, our review disclosed that
NSF grant costs claimed (i) were not always reasonable, allocable, and allowable
pursuant to the Federal cost principles and the NSF grant agreements and (ii) were not
always most effectively used to accomplish grant objectives. Specifically, for the 5 NSF
grants reviewed with total authorized funding of $10 million, we could not verify whether
Howard contributed the $12.3 million of cost sharing it claimed. Additionally, we found
that Howard did not effectively manage and oversee $2.9 million of NSF-funded
subawards and identified that 52 percent ($91,877) of the FY 2004 faculty salary charges
incurred on the 5 audited NSF grants were questioned costs. (These weaknesses are
discussed in detail in subsequent audit findings.) Lack of controls over Federal grants
management has also jeopardized other NSF funds to Howard, amounting to an
additional $8.8 million as of June 30, 2004, as well as future NSF awards. Similarly, all
Federal agency R& D active grant expenditures, totaling $44.5 million in fiscal year
2004, are at risk since the same Howard offices and personnel administer these awards.

Howard Needs a Compliance Program for Federal Assistance Grants

These weaknesses occurred because Howard efforts undertaken over the years to improve
its grant management processes had not been carried out effectively. In particular,
Howard lacks a system to monitor and assess the quality of its grant administration
activities and processes over time. Howard does not have a compliance program and/or a
specific high-level official accountable for overseeing Howard’s compliance with
applicable Federal and NSF grant regulations and program requirements. Without such
oversight, Howard lacks a comprehensive and coordinated approach to administer and
manage its Federal awards. Of particular significance, RFA and ORA, the two Howard
offices possessing the greatest knowledge and technical expertise in Federal grant
requirements, have not been designated clear and specific responsibility for ensuring
grant funds are properly administered and managed.

While the implementation of a meaningful and effective compliance program for Federal
grants may require a commitment of time and resources, the amount of Federal resources
Howard is receiving suggests that such an investment is necessary. Particularly given the

4
        Final Report on Subrecipient Requests for Payment-ECSEL Cooperative Agreement, Internal
Audit Report 2004-02 issued by the Howard Office of Internal Auditor to the Vice Provost for Research on
August 14, 2003.



                                                   7
internal control weaknesses identified during our audit and Howard’s own annual OMB
Circular A-133 audits. Howard needs to develop comprehensive written standards,
procedures, and practices that will guide Howard’s employees in the conduct of
day-to-day financial and grant administration operations. These policies and procedures
should be developed under the direction of a high-level official, who is formally
authorized and tasked with such compliance responsibilities. The official should
continually monitor and evaluate the implementation, effectiveness, accuracy, and
currency of Howard’s Federal grant administration processes.

Recommendations

We recommend that NSF’s Division Directors for the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA), coordinate with the
cognizant audit agency,5 as needed, to implement the following recommendations:

1.1     Require Howard to establish a program for monitoring and overseeing its NSF
        grant management processes. At minimum, such a program should include:

        a. Establishing comprehensive and current written polices and procedures for
           administering and monitoring NSF grant funds to ensure compliance with
           NSF and Federal grant requirements. Such procedures should:

             1) Clearly define the specific responsibilities for each university office
                associated with Federal grant activities, particularly the Office of
                Restricted Funds Accounting and the Office of Research Administration.

             2) Provide for a process to ensure implementation of timely and appropriate
                corrective actions to address deficiencies identified in audit reports and
                other evaluations.

        b. Designating a high-level Howard official to be accountable for ensuring
           effective compliance with Federal and NSF grant requirements. Preferably,
           this official should have authority to report directly to the President and/or to
           Howard’s Governing Board.

        Howard Comments

        In its response to the draft report, Howard agrees that further actions are needed to
        establish internal controls over Federal grant costs and has identified specific
        actions to implement the audit recommendations. Specifically, Howard indicates
        that it has issued new written policies and procedures for managing and
        administering its sponsored research program, consolidated all grants

5
          Department of Education is the cognizant audit agency pursuant to OMB Circular A-133, Audits
of States, Local Governments, and Non-Profit Organizations. Paragraph 400 (a)(7) states the cognizant
audit agency shall “Coordinate a management decision for audit findings that affect the Federal programs
of more than one agency.”


                                                    8
management functions under a new cabinet-level Vice President for Research and
Compliance, established a Research Compliance Office, and appointed a new
Chief Financial Officer tasked with review and improvement of the University’s
internal control mechanisms.

With regard to recommendation 1.1a, Howard issued a revised Manual for
Research and Other Sponsored Programs (Manual) on February 20, 2006 to
provide a reference guide for Howard faculty, staff, students, and researchers to
be used in administering its Federal research grant program. The Manual defines
the specific roles and responsibilities of the various new offices established by
Howard’s recent reorganization of its Research Administration Enterprise. Also,
the University issued a new Internal Procedures Handbook to serve as a reference
guide to Office of Sponsored Program staff in the preparation of pre-award and
post-award grant documentation.

Specifically, Howard reports that it has reorganized its Research Administration
Enterprise to provide for better management of and accountability over Federal
grant funds. Accordingly, a new organization chart has been developed defining
the goals and responsibilities of each office within the new organizational
structure. A new, cabinet-level Vice President for Research and Compliance has
been created as Howard’s senior research officer, who has the full authority to
establish strict internal controls for grant administration and compliance. Under
the Vice President’s cognizance, the University has consolidated all offices with
grant management responsibilities under a new Office of Sponsored Programs.
This office will be directed by the newly created Associate Vice President for
Sponsored Programs, who will have overall responsibility for oversight and
coordination of all day-to-day management functions for pre-award and
post-award aspects of grants and contracts administration, including the current
functions of the Office of Restricted Funds Accounting (RFA).

In addition, Howard has hired a new Chief Financial Officer (CFO) in October
2005, who has initiated a major assessment of all Howard accounting and finance
operations for the purpose of reorganizing its functions. A primary focus of the
CFO’s assessment will be to define the responsibilities of RFA and its
accountability for financial reporting of sponsored grants and contracts. The new
accounting organization is planned to be in place by July 1, 2006.

In response to recommendation 1.1b, Howard is creating a Research Compliance
Office to provide oversight and direction for all compliance aspects of the
University’s research enterprise. The office will report to the new Vice President
for Research and Compliance, who has been granted full authority to enforce
strict compliance with all NSF, Federal, and Howard policies. The Vice President
will report directly to the President of the University.

Howard’s President has briefed the chairs of the University’s Audit and Legal
Committee as well as the Academic Excellence Committee of the Board of



                                    9
      Trustees on the proposed full reorganization of the University’s Research
      Administration Enterprise. The President stated that he plans to present the new
      organization to the Executive Committee of the Board and is confident that the
      full Board will grant expedited approval. Howard’s response to the audit report in
      its entirety is included as Appendix D.

      OIG Comments

      Howard’s actions appear appropriate and responsive to addressing most of the
      audit recommendations. The University is committed to strengthen its Federal
      grants management processes as indicated by the corrective actions delineated in
      its response. However, Howard’s response did not identify any specific process
      to ensure timely and appropriate implementation of prior audit report
      recommendations, as delineated in recommendation 1.1a(2). Therefore, we
      reaffirm this audit recommendation and encourage Howard to focus on
      establishing such a process and clearly assigning responsibility to appropriate
      staff as part of its current effort to articulate the specific role and responsibilities
      of the new Research Compliance Office.

1.2   Require Howard to have an independent evaluation to validate that timely and
      appropriate corrective actions are implemented to address recommendation 1.1
      and all recommendations in audit findings 2 through 5 of this report. Such an
      evaluation could be performed as part of Howard’s annual OMB Circular A-133
      audit.

      Howard Response

      Howard agrees with the recommendation and will ask its external auditors to
      review the progress of corrective actions implemented as part of its annual OMB
      Circular A-133 audit. Also, Howard stated that its Office of Internal Audit would
      provide a formal review of the University’s implementation of the new systems
      established in response to the audit recommendations within 90 days of the final
      issuance of the audit report.

      OIG Comments

      Howard proposed actions appear appropriate. But the University needs to ensure
      that it formally modifies the contract with its external auditors to ensure the scope
      of work for its OMB Circular A-133 audit requires a specific evaluation of
      Howard’s implementation of the OIG audit recommendations. Also, the
      University needs to ensure that the results of the Office of Internal Audit review
      are provided to NSF.




                                             10
1.3   Withhold NSF grant funds if the independent evaluation in recommendation 1.2
      discloses that Howard has not implemented timely and appropriate corrective
      actions to address the audit recommendations to ensure effective management
      controls over NSF awards.

      Howard Response

      Howard believes that it has developed a comprehensive action plan and timelines
      to ensure that the results of the independent evaluation will demonstrate timely
      and appropriate corrective actions to address all report recommendations.

      OIG Comments

      NSF needs to closely monitor Howard’s progress in implementing its new internal
      control processes to ensure the proper, effective, and efficient management of
      NSF grant funds. As an integral part of this process, NSF needs to obtain and
      carefully evaluate the results of the both the planned Office of Internal Audit
      review and the OMB Circular A-133 evaluation of Howard’s implementation of
      the audit report recommendations. It is NSF’s responsibility to take appropriate
      actions, including coordinating, as necessary, with the cognizant audit agency to
      remediate any identified risk in Howard’s management of NSF’s grant funds.




                                         11
2. Howard Needs a System to Identify, Account for, Monitor, and Report Cost
Sharing

Contrary to OMB regulations, Howard lacked adequate internal controls for managing,
accounting for, and reporting on its cost sharing obligations. Specifically, Howard did
not track and therefore, could not support, $6.9 million of cost sharing it claimed on four
of the five audited NSF awards with matching requirements. In addition, Howard did not
obtain adequate documentation from subrecipients to support another $5.4 million of cost
sharing and did not submit appropriate annual cost sharing certifications to NSF, as
required by its grant agreements.

This occurred because Howard’s accounting system did not have the capability to track
cost-shared expenses contributed to NSF grants and Howard management did not place
adequate priority on cost sharing compliance. As such, Howard did not follow its own
cost sharing policy and inappropriately delegated sole responsibility for cost sharing
management to the PI, instead of requiring its grants accountants to monitor the cost
sharing claimed on NSF awards.

Without the ability to determine if Howard’s claimed cost sharing was specifically
incurred for the benefit of NSF grants, we were unable to determine whether the $12.3
million of cost sharing it claimed on four of the five audited awards for 2000 to 2004 was
allowable in accordance with Federal grant requirements. Furthermore, such systemic
weaknesses in Howard’s cost sharing controls increase the risk that Howard is not
adequately accounting for its remaining cost sharing requirements of $4 million on other
active NSF awards or on future awards.

Inadequate Cost Sharing Accounting System

OMB Circular A-110 requires that grantees have financial management systems that
provide “accurate, current and complete disclosure of financial results of each Federally-
sponsored project…” and “effective control over and accountability for all funds…”
Specifically, cost-shared amounts must be “verifiable from the recipient's records…
necessary and reasonable for the proper and efficient accomplishment of project or
program objectives…[and] allowable under the applicable cost principles…”

Accordingly, in July 1999, Howard’s Office of the Comptroller issued Policy For Cost
Sharing, which specifically requires “accurately recording and reporting of cost-sharing
expenses.” The policy states “All cost-shared expenditures of a sponsored project must
be properly recorded and reported in the University’s accounting system… [and] be
recorded in dedicated cost sharing accounts.” Furthermore, the Cost Sharing policy
delineates that employee “Effort, including cost shared amount, must be confirmed after
the fact as part of the bi-annual certification process” in Howard’s labor effort
distribution system.

However, contrary to its Cost Sharing policy, the Howard accounting system did not
identify and track cost-shared expenses incurred for each Federal award. Our review of


                                            12
the $6,853,189 in total cost sharing that Howard claimed on the five audited awards
between 2000 and 2004 disclosed that RFA could not provide a detailed listing of
cost-shared expenditures from its accounting system by each NSF grant. According to
RFA officials, no unique cost sharing accounts were established to specifically link the
claimed cost sharing to NSF awards. We found that the cost-shared expenses claimed
were based on information accumulated outside the accounting system by Howard
program officials. As such, Howard could not provide documentary evidence that the
cost-shared expenses, reported in its manually prepared summaries, represented costs
benefiting the NSF awards as opposed to other Howard or Federal programs.

In addition, our review disclosed the PIs did not have adequate documentation to support
the $6,853,189 of claimed NSF cost sharing reported in their manually prepared
summaries of cost sharing for the 5-year period. Our detailed review of supporting
documentation for the FY 2004 claimed cost sharing of $1,653,129 disclosed that 81
percent or $1,342,791 was for student scholarships/stipends, 10 percent or $172,208 was
for Howard faculty and professional salaries, and the remaining 9 percent was for
materials, travel, and administrative costs. We found that the Howard process to
document cost-shared scholarship expenditures was to manually select certain students
from a roster of all Department scholarship recipients, generated from its Financial Aid
System. However, for 2 of the 3 NSF awards reviewed, which had FY 2004 scholarship
commitments of $689,120 or 51 percent of the reviewed cost sharing, Howard program
officials did not retain a copy of the original listing of selected scholarship recipients to
support the claimed cost sharing. Without such documentation, it was not possible to
determine if the reported student scholarship costs benefited the specific NSF awards.

The following example demonstrates the problems arising when manually generated
documentation, developed outside of the Howard accounting system, is used to support
NSF cost-shared expenditures. On NSF grant No. HRD 0302788, the PI’s summary of
NSF cost sharing claimed for FY 2004 totaled $462,393, of which $221,303 was
provided for student scholarships from Howard financial aid Account No. 211307.
However, the PI did not retain a copy of the listing of specific students used to support
the $221,303 in claimed cost sharing. In addition, our analysis disclosed that Howard
Account No. 211307, with a total balance of $471,654 in student financial aid, was also
used to support cost sharing on four other Federal awards during the fiscal year.
Consequently, without unique tracking to link the claimed cost sharing to the relevant
NSF award, Howard cannot explicitly document that the $221,303 in financial aid for the
specific students identified as cost sharing for the NSF grant HRD 0303788 was not
double counted as matching on any of Howard’s other four Federal awards.

Further, we found that the FY 2004 Howard faculty and staff salary costs of $172,208 or
10 percent of the total claimed as cost sharing, were PI estimates of the value of effort
expended by Howard personnel working on the NSF grants rather than actual costs
supported by personnel activity reports. Contrary to its own Cost Sharing policy, these
salary costs were not supported by after-the-fact personnel activity reports from
Howard’s salary distribution system. Therefore, Howard could not support salaries
claimed as NSF cost sharing.



                                             13
Inadequate Support for Subrecipient Cost Sharing

Howard also could not demonstrate that the $5,437,386 cost sharing it claimed on its
subawards benefited NSF. OMB Circular A-110 states “Recipients are responsible for
managing and monitoring each…subaward…” Contrary to these requirements, we found
that Howard did not have adequate documentation to support the claimed subawardee
cost sharing and the applicable Howard subaward agreements mistakenly did not include
any provisions legally requiring the cost sharing or specifying the dollar amount of the
cost sharing required.

Specifically, the letters Howard received from its six subrecipients supporting the
$5,437,386 in claimed cost sharing for NSF grant No. HRD-0000273 inappropriately
reported a budgeted and/or committed dollar amount and not actual costs incurred by the
institutions for the benefit of the NSF grant. For example, one of the subrecipient’s
letters stated: “We are pleased to announce $320,000 in scholarship monies each year to
support Hampton University project students…” Similar letters of commitment were
received from the other 5 subrecipients. However, without knowing how much the
subawardees actually paid in student scholarships, Howard cannot ensure these
scholarships were paid in the amounts claimed or specifically benefited NSF award
objectives. In particular, five of the six subawardees’ letters for the first two years of the
claimed cost sharing, totaling $2,478,835 or 46 percent of the total cost sharing, could not
have benefited the NSF award since the letters were for 1999 and 2000 scholarships and
the subject NSF grant was not awarded until November 1, 2000.

Our review of the supporting documentation also disclosed that Howard did not have a
review process to identify and correct additional deficiencies. The Principal Investigators
inappropriately signed the commitment letters for 2 subawardees, even though the PIs did
not have the authority to commit their institutions to cost sharing. Only the institutions’
Authorized Organizational Representatives had the authority to commit their universities
to cost sharing obligations and to ensure such costs were committed only to the NSF
subaward and not other externally-funded projects. Furthermore, we found that a Howard
administrative staff person copied previous commitment letters from Bowie State
University and Virginia State University and altered the dates to reflect new commitment
letters for subsequent years from the organizations. Because the Howard review process
did not identify these altered dates, there was an increased risk that these subawardees
may not have provided their required cost sharing amounts. The following chart
summarizes the noted deficiencies.




                                             14
                Problems With Subawardee Cost Sharing Documentation

              Subawardee                      Total Cost  Budgeted   Altered   Signed
                                           Sharing Claimed Amount     Dates    By PI

  University of the District of Columbia        $1,112,568   X
  Morgan State University                       $1,488,959                        X
  Bowie State University                        $1,000,000   X          X         X
  Norfolk State University                        $375,859   X
  Hampton University                            $1,280,000   X
  Virginia State University                       $180,000   X          X

  Total                                         $5,437,386

Because of the altered documentation, we performed onsite reviews at Bowie State
University and Virginia State University, where claimed NSF cost sharing amounted to
$1,000,000 and $180,000, respectively. While our review disclosed that the amounts in
the altered letters were the same annual amounts claimed by the two universities, neither
institution had written cost sharing procedures or tracked cost-shared expenses for the
NSF subaward in their accounting systems. Therefore, they were not able to demonstrate
that these same scholarship costs had not been double-counted as matching on other
Federal grants.

Specifically, at Bowie State University, we found a high risk that the University did not
have adequate cost sharing to meet all of its Federal cost sharing obligations. The PI had
unilaterally and without authority signed the commitment letters for $250,000 of annual
University-funded scholarships to match NSF grant funds, without the knowledge and/or
approval of any senior-level official at Bowie State University or its Office of Federal
Research and Development. According to the PI, her Department also had scholarship
cost sharing commitments of approximately $100,000 annually under another Federal
grant. Consequently, since there was no university-level knowledge and oversight of the
University’s total cost sharing commitments, there were no controls to preclude other
Bowie State University PIs from committing these same scholarships to fulfill other
Federal matching requirements. Thus, it is possible that total Bowie State University
scholarship funding for 2003/2004 of $418,549 for science, math, and technology
students would not have been adequate to fulfill total Federal matching obligations,
particularly given that $250,000 or 60 percent had been committed to the NSF subaward.

Inadequate Annual Cost Sharing Certifications to NSF

NSF’s grant agreement requires “ …the amount of cost sharing must be documented (on
an annual and final basis) and certified by the Authorized Organizational
Representative…” for awards with total cost sharing commitments of $500,000 or more.
Contrary to this requirement, Howard did not submit the required annual 2004 cost
sharing certification for 1 of the 3 grants reviewed, where such a certification was
required. In addition, the Howard Authorized Organizational Representative did not
certify the 2 cost sharing reports that were submitted to NSF. Instead, the certifications


                                               15
were submitted by a working-level Research Administrator, who did not have the
authority to legally bind Howard to carry through on such cost sharing commitments. In
addition, this individual did not have sufficient knowledge or access to Howard’s cost
sharing documentation to ensure the integrity of the FY 2004 cost sharing amounts being
certified to NSF of $2,258,264 on two awards.

Implications of Inadequate Cost-Sharing Controls

The lack of adequate accounting controls over cost sharing at Howard and sufficient
documentation of subrecipient cost sharing prevented us from determining whether the
$6,853,189 that Howard claimed and the additional $5,437,386 that Howard
subrecipients claimed as cost sharing on the four audited grants were allowable costs.
Given that the deficiencies in controls over cost sharing were systemic in nature, we
could not substantiate the validity and accuracy of any cost-sharing amounts claimed by
Howard. Accordingly, we do not believe Howard has a reasonable basis to ensure that
any of the $12.3 million of claimed cost sharing on the NSF awards reviewed was
allocable, allowable, and reasonable in accordance with Federal requirements. (See
Appendix A) Further, to the extent that these weaknesses in accounting controls over
cost sharing occurred university-wide, Howard may have inaccurately reported and
claimed cost sharing amounts on its other 12 NSF grants over a 5-yr period, for which it
promised to pay an additional $4 million of cost sharing.

Inadequate accounting also resulted in inaccurate reporting of cost sharing and frequent
revisions of its manually generated cost sharing reports. During our audit, Howard
revised its cost sharing reports on 2 of the 4 audited grants. For example, on NSF grant
No. HRD-0302788, Howard program officials changed the names of two graduate
assistants originally reported, representing $54,000 of FY 2004 cost sharing, when it
realized that these students had not worked on the NSF sponsored project. Further, in the
third year of NSF grant No. ESI-0102295, Howard revised the cost sharing reports for the
first 2 years totaling $53,250 because it had inappropriately claimed classroom rental
costs, which are ineligible for cost sharing purposes because such costs are included in
Howard’s indirect cost recovery.

Additionally, because accounting control deficiencies may have allowed for counting
cost sharing amounts more than once, NSF may have experienced cost sharing shortfalls
on the 4 audited awards. Cost sharing was proposed to provide for approximately 51
percent of the total budget for these 4 NSF funded programs. Consequently, cost sharing
shortfalls could have a serious detrimental effect on the programs funded by these
awards. Unmet cost sharing can limit project scope and compromise the achievement of
grant objectives.

Inadequate University Oversight

Howard management did not assign sufficient priority to cost sharing compliance. Also,
RFA grant accountants, who had the required financial expertise and knowledge of
Federal grant requirements, were not assigned responsibility to monitor Howard’s cost



                                           16
sharing commitments or to ensure compliance with Federal and NSF cost sharing
requirements.

In particular, Howard did not have a monitoring process in place to assess and evaluate
whether established University cost sharing procedures were being implemented. While
Howard had issued a Policy For Cost Sharing in July 1999 requiring that “All cost-
shared expenditures of a sponsored project must be properly recorded and reported in the
University’s accounting system… [and] be recorded in dedicated cost sharing accounts,”
these procedures were never implemented. We found no evidence that Howard initiated
any actions to rectify the problem that its accounting system did not have the capability
for tracking and linking its cost shared expenses to specific Federal grants.

Similarly, the lack of management oversight resulted in Howard not maintaining
adequate documentation to support the $12.3 million of claimed NSF cost sharing.
Howard staff with Federal grants expertise was not tasked with this responsibility.
Without specific assigned responsibilities, RFA management stated that it was not their
role to review the cost sharing documentation maintained by the PIs, even though copies
of such documentation were usually requested and placed in Howard’s official grant files
at RFA. On the other hand, as researchers, the PIs were not knowledgeable of Federal
grant requirements and/or the type of documentation needed to support Howard and/or
subrecipient cost sharing. We believe that RFA review of the cost sharing documentation
would have readily identified the problems noted during our review.

Recommendations

We recommend that the NSF’s Division Directors for the Division of Institution and
Award Support (DIAS) and the Division of Grants and Agreements (DGA), coordinate
with the cognizant audit agency, as needed, to implement the following
recommendations:

2.1    Require Howard to establish:

       a. An accounting system required by the University’s cost sharing policy, that
          links cost shared expenses to specific NSF awards.

       b. Clear and specific responsibility for cost sharing compliance on NSF awards
          is assigned to Howard staff with Federal grant expertise.

       c. A process to ensure the integrity of annual certifications of cost sharing are
          submitted to NSF.

       Howard Response

       Howard reported in its response to the draft report that it has developed a new
       system for managing, accounting for, and reporting its Federal cost sharing
       expenditures in July 1, 2005. Specifically, the University states that it has



                                            17
implemented a new methodology in its current accounting system to separately
track cost-shared expenditures in dedicated cost sharing accounts. Accordingly,
Howard revised its cost sharing policies and procedures to specify responsibilities
for the various offices required to support implementation of the newly
established process.

The University stated that these specific cost sharing responsibilities have been
clearly delineated in “staff position descriptions.” Specifically, the PIs are
responsible for obtaining cost sharing documentation and providing these
documents to the grants accountant. In turn, the grants accountant ensures the
adequacy of the supporting documentation, records cost sharing transactions in
the accounting system, and prepares the annual NSF cost sharing certifications for
signature by the Authorized Institutional Representative. Howard also noted that
cognizant University staff would be required to be fully trained in cost sharing
principles and procedures.

Additionally, Howard states that it has started to record FY 2006 cost-shared
salaries on certain NSF grants in new dedicated cost sharing accounts and will
complete the implementation in the near future. Further, Howard stated that the
Peoplesoft modules, a new enterprise software system scheduled for
implementation in FY 2007, would similarly have the required Federal cost
sharing functionalities.

OIG Comments

Howard’s actions appear appropriate and responsive to addressing the audit
recommendations. With implementation of new dedicated accounts in its
financial management system to separately track cost sharing and assignment of
new responsibilities to grants accountant for monitoring such costs, it is
imperative that Howard ensures that such new procedures are fully understood by
cognizant staff and are being effectively implemented. Also, we would like to
note that Howard’s new procedures primarily focus on the proper recording of
cost-shared salaries. It is equally important for the University to ensure that other
cost-shared expenses are properly recorded as well. Specifically, our analysis of
FY 2004 NSF cost sharing claimed by Howard disclosed that 81 percent was for
student scholarship/stipends.




                                     18
3. Subaward Management and Monitoring Need Improvement

Howard needs to improve its management and oversight of NSF grant funds
passed-through to subrecipient organizations. For the five audited awards, Howard had
passed-through $2.9 million (29 percent) to seven subrecipients for 2000 to 2004.
However, contrary to Federal and NSF regulations, Howard did not have accurate and
comprehensive subaward agreements for assessing subrecipient performance and did not
implement an effective subaward monitoring program to ensure subrecipient compliance
with Federal and NSF grant requirements.

Because of these control weaknesses, Howard (a) made processing errors involving
incorrect amounts listed on subaward agreements totaling $117,764 or 4 percent of the
funding on the 7 subawards, (b) did not establish legal contractual requirements to secure
$5.4 million of subrecipient cost sharing and $2.3 million of participant support/trainee
costs, and (c) lost the opportunity to ensure the timely use of $531,596 of subrecipient
funding to achieve grant objectives. As a result, Howard cannot ensure that NSF grant
funds have been spent in compliance with NSF and Federal requirements and were
effectively utilized for authorized grant purposes.

This occurred because Howard lacked the organizational structure and processes to
properly oversee and monitor the financial and administrative performance of its
subawards. Specifically, Howard did not have comprehensive, written internal control
standards, procedures, and practices to guide its employees in day-to-day operations for
managing subawards. As such, the roles and responsibilities of the various Howard
offices were not clearly defined to ensure the effective assignment of subaward oversight
responsibilities. Also, sufficient priority was not given to correcting subaward
management and monitoring issues identified in recent OMB Circular A-133 and Howard
internal audit reports.

Need For Accurate and Timely Subaward Agreements

NSF grantees have a stewardship responsibility, when receiving Federal grant funds, to
exercise prudent oversight and to ensure those public monies are spent for authorized
grant purposes. When grant funds are passed-through or transferred to a subrecipient,
OMB and NSF grant requirements specify that the primary grantee, or in this case
Howard, is responsible for the programmatic and administrative performance of its
subawardees.6 As such, Howard should establish accurate and timely subaward
agreements that contractually obligate the subrecipient to the grant requirements imposed
by NSF grant agreements.

Contrary to OMB and NSF requirements, Howard did not establish the foundation for an
effective subrecipient monitoring program by developing well-written and
comprehensive subaward agreements. Because the subaward agreements form the

6
           Section 51 (a) of OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
With Institutions of Higher Education, Hospitals, and Other Non-profit Organizations, and Chapter III of NSF Grants
Policy Manual sets forth grant monitoring requirements.


                                                         19
baseline for assessing subrecipients’ performance and compliance, it was essential for
Howard to provide its subrecipients with clear and comprehensive award terms and
conditions in a timely manner. However, in all 7 subawards covered by the audit, we
found administrative errors in 35 percent of the subaward agreements and amendments.
Also, Howard allowed subawardees to begin work an average of 5.3 months before
formal agreements were signed and did not “flow-down” NSF requirements for cost
sharing and participant support costs.

Significant Errors and Delays in Subaward Agreements

From 2000 to 2004, Howard issued 7 subawards under two NSF grants, HRD 0000273
and HRD 0302788, totaling $2,889,093 or 73 percent of the total authorized NSF
funding. At Howard, the PI is responsible for requesting that ORA establish subaward
agreements under Federal grant programs and initiating actions for annual amendments to
provide additional incremental funding. When these requests are received, RFA
encumbers the grant funds in the Howard accounting system and ORA develops and
processes the appropriate subaward agreements and/or amendments with the recipient
organizations. ORA uses a template, which includes the standard Howard terms and
conditions for subawards.

Our review of the subrecipient agreements and amendments, associated with the seven
  NSF-funded subawards, disclosed that ORA made administrative errors in executing
  these contractual actions. Of the 40 subaward agreements and amendments Howard
processed from 2000 to 2004 on the seven audited NSF subawards, ORA made errors in
 14 cases (35%) by incorrectly specifying one or more of the following award terms: the
   dollar amount of the annual funding increment, the cumulative authorized funding
amount, the period of performance, and/or the amount of encumbered funds. In addition,
  ORA did not process these actions in a timely manner. The following table lists, by
  applicable award, the subawards issued and the administrative errors associated with
                                          each:




                                          20
         Errors and Delays In Processing Subaward Agreements and Amendments

Subawardee        Difference Bet. Encumbered & Contract Amts       Transactions    Amounts      Months for    Months Bet.
  Name            Funds        Cum Funds          Difference     Total Incorrect   Associated    ORA to       Signed and
                Encumbered    Per Agreement    Contract Contract  #        #          With       Process     Effective Date
                                                More      Less                       Errors
(NSF Grant)
 (0000273)
   Bowie          $293,798         $328,622$34,824                 9       5         $184,223       4              6

    Hampton       $711,592         $711,592                        6       1         $357,062      2.8            3.6

    Morgan        $832,792         $832,792                        7       1                       3.5            4.9

    Norfolk       $384,692         $383,692              $1,000 6          3                       4.4            3.8

     UDC          $388,692         $306,752             $81,940 6          2         $107,588      3.6            4.9

    Va State      $237,798         $237,798                        5       2                       3.8            6.3

    Subtotal    $2,849,351       $2,801,235                       39      14

(NSF Grant)
 (0302788)
   UTEP                              $87,845                       1                                              7.5

Grant Total     $2,849,364       $2,889,093$34,824$82,940 40              14         $648,873      3.7            5.3



•    Processing errors: Errors in amendments to 3 subawards resulted in Howard
     identifying the wrong dollar amounts in the subaward agreements and/or the award
     amounts not agreeing with amounts encumbered in Howard’s accounting system.
     Specifically, the subaward agreement for Bowie State University was $34,824 more
     than total encumbered funds. Conversely, the subaward amounts for the University
     of the District of Columbia and Norfolk State University subawards were less than
     total encumbered funds by $81,940 and $1,000, respectively. Furthermore, Howard
     mistakenly issued duplicate amendments for $648,873 due to ineffective procedures
     to track and process subaward amendments.

•    Work began before agreements formalized: All 7 subawardees were allowed to
     begin work on average 5.3 months before formal agreements and/or amendments
     were signed. Of this time, ORA took an average of 3.7 months to process and
     execute the subaward agreements and amendments. By not finalizing these
     contractual documents before work begins, Howard risks misunderstanding with the
     subawardee on the terms and conditions for how and on what the subaward funds can
     be expended.




                                                  21
Subaward Agreements Do Not Flow-Down Required NSF Provisions

In addition to processing errors, and contrary to OMB and NSF requirements, Howard
did not advise subrecipients of the specific requirements of the NSF grant agreements.
Howard subaward agreements did not flow-down required Federal and NSF grant
provisions for participant support/trainee costs and cost sharing (as mentioned in
Finding 2). Specifically, the NSF Grant General Conditions require that “Funds provided
for participant support may not be used by grantees for other categories of expense
without the specific prior written approval of the cognizant NSF Program Officer.”
While the Howard subaward budgets included significant funding for participant support
costs, its subaward agreements mistakenly did not flow-down the subject NSF
requirement restricting the use of such funds. Specifically, for the 7 subawards reviewed,
Howard proposed budgets allocated 80 percent of total subaward funds to participant
support costs. Thus, for the $2,889,093 of total subaward funding, $2,311,264 was
restricted to participant support costs for students. However, Howard subaward
agreements mistakenly did not include a provision restricting the spending of those funds
to participant support and therefore, subawardees were not obligated legally to limit
spending of those funds to participant support as required by the NSF grant agreements.

Similarly, Howard subaward agreements did not include a cost sharing provision
requiring the subawardee to provide such matching funds or specify the OMB cost
sharing documentation and reporting requirements. As previously discussed in
Finding 2, Howard subrecipient cost sharing claimed from 2000 to 2004 totaled over $5.4
million for the subawards reviewed. Without a specific Howard subaward provision
and/or budget delineating the dollar amount of the cost sharing obligation, there was not a
legal requirement for these subawardees to provide any of these NSF-required cost
sharing commitments.

Need to Actively Monitor Subawards

OMB also provides guidance on subaward monitoring responsibilities for primary
grantees.7 Specifically, primary grantees should (1) monitor the subrecipient’s use of
Federal funds to provide reasonable assurance that subrecipients administer Federal
awards in compliance with laws, regulations, and the provisions of award agreements and
that performance goals are achieved and (2) ensure that subrecipients have met audit
requirements. The OMB guidance describes and suggests various risk factors that may
affect the nature, timing, and extent of subrecipient monitoring performed by the primary
grantee. Such risk factors include:




7
         Subpart D, Section 400 of OMB Circular A-133, Audits of States, Local Governments, and Non-
Profit Organizations, and Part 3, Section M of the A-133 Compliance Supplement establish OMB
guidelines for a primary grantee’s monitoring responsibilities for its subawards.



                                                 22
•   Program complexity - programs with complex compliance requirements have a
    higher risk of non-compliance;
•   Percentage of awards passed through - the larger the percentage of program
    awards passed through the greater the need for subrecipient monitoring;
•   Amount of awards - larger dollar awards are of greater risk;
•   Primary grantee’s past experience with monitoring a particular subrecipient;
•   Subrecipient’s past experience with Federal awards; and,
•   Type of findings and corrective actions identified in a subrecipient’s OMB Circular
    A-133 audits.8

The extent of monitoring is left to the judgment of the primary grantee depending on the
primary grantee’s assessment of the subrecipient as a higher risk or lower risk
organization. The primary grantee should monitor the subrecipient activities throughout
the year and such monitoring can take various forms, such as:

•   Reporting - reviewing financial and performance reports submitted by the
    subrecipient;
•   Site Visits - performing site visits at the subrecipient to review financial and
    programmatic records and observe operations;
•   Regular Contact - regular contacts with subrecipients and appropriate inquiries
    concerning program activities; and
•   A-133 Audit Reports - reviewing findings and corrective actions identified in a
    subrecipient’s annual A-133 audit reports.

However, Howard did not have a process to evaluate its subrecipients as being a higher or
lower risk organization in order to determine the appropriate degree and type of
monitoring. Instead, Howard’s monitoring system, for the most part, consisted of ORA
obtaining A-133 audit reports and PIs conducting site visits to monitor programmatic, but
not financial performance. Contrary to the OMB guidance, Howard did not require
subrecipients to provide financial or programmatic status reports even though the seven
subrecipients received $2.9 million in NSF funds and were required to provide another
$5.4 million in cost sharing. Additionally, Howard did not effectively track subrecipient
A-133 audit reports and did not document its oversight over subrecipient corrective
actions on audit findings. As a result, Howard did not have an effective subaward
monitoring program to meet OMB control objectives to provide reasonable assurance that
its subrecipients administered NSF grant funds in compliance with laws, regulations, and
the provisions of grant agreements.




8
               Subrecipients expending $300,000 ($500,000 for fiscal years ending after December 31,
2003) or more in Federal awards during the subrecipient’s fiscal year are to have an audit within 9 months
of the end of the subrecipient’s fiscal year.



                                                    23
Lack of Monitoring of Financial Activity and Cost Sharing Documentation

One of the crucial tools required to monitor subrecipient grant activities is the review of
progress reports. However, Howard’s subaward agreements did not establish clear
requirements for periodic progress reports to ensure prudent oversight of NSF grant
funds. For example, for 6 of the 7 subawards reviewed, the only reference to a reporting
requirement was in the attached scope of work for the subawards, which stated:
“Financial and periodic performance reports will be submitted in accordance with the
schedule set by the Alliance Project Director.” However, while the PI obtained
programmatic performance information from the 6 subawardees through periodic site
visits and information reported in a statistical database, he did not require or receive
annual written progress reports concerning financial activity. The grant agreement for
the seventh subaward required progress reports as described by the NSF grant, but
Howard did not receive such a report.

Further, while the two PIs had regular contact with the subawardees concerning program
activities, the PI for NSF grant No. HRD 0000273 did not use Howard’s Financial
Reporting System to monitor the subrecipients’grant expenditures. On two of the six
subawards for HRD 0000273, the Howard Financial Reporting System showed that
expenditures were not timely; increasing the risk that the two organizations may not be
achieving grant objectives. As of the end of FY 2004, 3 ½ years after the effective
subaward dates, total Howard payments for these two subawards were only $100,480 or
19 percent of total authorized funding of $531,596. Additionally, as previously
discussed, Howard did not evaluate the subrecipient cost sharing documentation to ensure
that cost sharing amounts of $1,180,000 on these two subawards were documented
appropriately to support Howard’s certifications to NSF regarding claimed cost sharing
(discussed in Finding 2).

Lack of Monitoring of Subrecipient A-133 Audit Reports and Findings

OMB Circular A-133 requires primary grantees to ensure that its subrecipients have met
their audit requirements and to issue a management decision on A-133 audit findings
within 6 months after receipt of audit reports to ensure that the subrecipients take
appropriate and timely corrective action. However, Howard does not have an
established system to document receipt and assessment of subrecipient A-133 audit
reports. Although this has been a continuous internal control weakness noted in
Howard’s own A-133 audit report since at least fiscal year 2000, effective corrective
actions have not been implemented. (See Finding No. 1, page 6)

While ORA has established new procedures and undertaken various initiatives over the
years to improve its internal controls over tracking receipt and assessment of subrecipient
A-133 audit reports, Howard staff have not always followed these procedures or
continued with the initiatives. For example, in 2003, ORA established a tracking
mechanism through the use of a spreadsheet with certain data elements to facilitate
monitoring of the subrecipient A-133 audit reports. However, the use of this tracking
mechanism was not continued when the ORA individual responsible for maintaining this



                                            24
spreadsheet departed in 2004. Thus, in our April 2005 discussions with ORA, officials
were not able to document that there was a systematic mechanism used for tracking the
receipt and assessment of the subrecipient A-133 audit reports.

Although Howard had documentation reporting the results of the most recent A-133 audit
for six of the seven subawards, Howard did not have documentation reporting the results
of the most recent A-133 audit for Virginia State University. The last audit reported was
for fiscal year 1999 and the Howard documentation for the subsequent years reported that
the Virginia State audit was underway, but we could find no evidence that ORA staff ever
followed-up to ascertain the status of those subsequent A-133 audits.

Furthermore, our discussions revealed that from August 2004 to March 2005, no Howard
management decisions were made on subrecipient A-133 audit findings because there
was a disagreement concerning whether ORA or RFA had this responsibility. The
Associate Provost for Research, who is the manager of ORA, told us that he has assumed
this responsibility and has reviewed the audits for the small number of subawardees that
reported findings. However, he did not document his oversight efforts as required by the
OMB guidance.

Consequences of Inadequate Subaward Oversight

Without an effective Howard subaward management and oversight program, NSF cannot
ensure that $2.9 million of subaward funds were managed prudently to achieve grant
objectives or expended in accordance with NSF and Federal grant requirements. The
grants management weaknesses identified resulted in:

    •   Lack of Howard legal recourse in the event that subawardees do not meet their
        $5.4 million cost sharing commitments or properly restrict spending of $2.3
        million in participant support/trainee costs due to the absence of required NSF
        flow-down requirements.

    •   Loss of Howard’s opportunity to ensure that $531,596 of funding for two
        subawardees was timely used to most effectively achieve grant objectives due to
        the lack of financial progress monitoring.

Howard Needs to Develop a Control Framework for Subaward Oversight

These weaknesses occurred because Howard lacked organizational structures and
processes to properly oversee the administration and monitoring of subawards and
Howard management had not given sufficient priority to addressing subaward
management weaknesses identified in prior audit reports. Specifically, there are no
comprehensive written internal control procedures establishing a formal documented
process for subaward management. As such, it was not clear who was responsible and
what procedures were to be used to monitor subawards to ensure adequate financial and
programmatic accountability. Equally important, there were no Howard procedures for
where and how subaward documentation was to be maintained.


                                           25
Consequently, due to the absence of clearly defined and assigned roles and
responsibilities, we found that no Howard staff was performing risk assessment of
subrecipients and deciding the type, nature, and extent of monitoring required to ensure
adequate financial and administrative accountability. Neither ORA nor RFA grants staff,
with the required Federal grant expertise, believed it was their responsibility to perform
such functions.

Equally important, we concluded that the significant number of administrative errors
found in processing subaward actions was caused primarily by the lack of an established
Howard system for filing and maintaining subaward documentation. ORA subaward files
were scanned and maintained electronically, but were not organized systematically,
making it very difficult to locate copies of subaward agreements and amendments.
Without readily available copies of prior amendments, ORA officials could not determine
the proper subaward terms and conditions, thus resulting in the many administrative
errors made when processing amendments for annual incremental funding. In addition,
ORA did not have an organized system for ensuring that copies of the executed subaward
amendments were sent to the appropriate Howard offices and/or to the subawardees. As
a result, the official Howard grant file, maintained by RFA, did not contain copies of all
subaward amendments. Similarly, we were unable to locate these missing amendments
in the PI and/or the Accounts Payable files.

Howard Does Not Implement Audit Recommendations Effectively

Howard had not resolved the subaward management weaknesses identified in prior audit
reports. In addition to the weakness in oversight of subrecipient A-133 audits, Howard’s
Office of Internal Auditor (OIA) issued a report on August 14, 2003, pertaining to
subaward payments under an NSF grant for $14.5 million.9 Similar to the weaknesses
identified during our review, the OIA concluded that Howard did not have documentation
evidencing subrecipient monitoring and did not have grant files containing complete
copies of Howard’s agreements with NSF and its subrecipients. Pursuant to the audit
recommendations, among other corrective actions, the Vice Provost of Research agreed
to:

     •   Develop a checklist of documentation to be maintained in official grant files to
         support fiscal transactions for research grants. The Associate Vice Provost for
         Research, who is the manager of ORA, was to periodically review the grant files
         to ensure such documentation was maintained. However, as of April 2005,
         almost 2 years after the audit, such a checklist has not been completed to the
         satisfaction of OIA.




9
        Final Report on Subrecipient Requests for Payment-ECSEL Cooperative Agreement, Internal
Audit Report 2004-02 issued by the Howard Office of Internal Auditor to the Vice Provost for Research on
August 14, 2003.


                                                   26
      •   Include evidence in the official grant files to document that Research
          Administrators were evaluating subrecipient invoices to demonstrate appropriate
          monitoring of subawards. Based on June 2004 audit follow-up efforts, OIA was
          informed that RFA, instead of ORA Research Administrators, took authority for
          ensuring that grant files include such evidence of evaluation of subrecipient
          invoices. However, our discussions with RFA management disclosed that they
          were not aware of this change in responsibility and, neither ORA nor RFA staff
          reviewed the invoices.

Conclusion

Howard has not exercised adequate stewardship of NSF grant funds passed-through to
subrecipient institutions. It lacked the organizational structures and processes to properly
oversee the administration and monitoring of subawards and management has not given
sufficient priority to addressing subaward management weaknesses identified in prior
audit reports. As such, Howard does not have reasonable assurance that public monies
were spent properly and accounted for systematically and could not demonstrate that
limited NSF research funding was judiciously managed to deliver the maximum level of
program benefits.

Recommendations

We recommend that NSF’s Division Directors for the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA), coordinate with the
cognizant audit agency, as needed, to implement the following recommendations:

3.1       Require Howard to establish subaward management procedures for NSF grants to:

          a. Clearly identify and assign to Departments/PIs, ORA, and RFA their
             respective responsibilities for all aspects of subaward management and
             monitoring including the issuance of timely and accurate subaward
             agreements and amendments; assessment of subrecipient risk of
             noncompliance with NSF and Federal grant requirements; and the
             development of specific subrecipient monitoring plans based on such risk
             assessments.

          b. Modify standard Howard subaward terms and conditions to require (1)
             periodic financial progress reports, (2) clear identification of the dollar
             amount of required cost sharing, (3) documentation and reporting of required
             and actual cost sharing amounts, and (4) budgetary restrictions on participant
             support/trainee costs.

          c. Establish a formal process and assign clear Howard responsibility to ensure
             appropriate corrective actions are implemented to address prior Howard OIA
             and A-133 audit findings and recommendations pertaining to subaward
             management.



                                              27
Howard Response

Howard agrees that subaward management and monitoring needed improvement
in the period from 2000 to 2004. Pursuant to the audit recommendations, the
University states that it has developed subrecipient management and monitoring
procedures and incorporated the new procedures in its newly issued Manual for
Research and Other Sponsored Programs. The new procedures will require the
flow-down of appropriate provisions from the sponsoring agency’s award
agreement and delineate specific subaward monitoring activities and
responsibilities.

Further, Howard has modified its subaward template to directly address the
subaward issues raised in the audit finding. The University states that the new
subaward terms and conditions will provide Howard with the appropriate
foundation for assessment of subrecipient performance. These new subaward
provisions require: (1) periodic progress reports; (2) identification of the dollar
amount of cost sharing requirements, (3) reporting of cost sharing on periodic
subaward invoices, (4) documentation requirements for cost shared expenditures,
(5) compliance with approved subaward budgets, and (6) Howard approval for
any reallocation of budgeted subaward funds.

In addition, on February 28, 2005, the ORA issued A Policy for the Collection
and Maintenance of, and Action Upon Relevant A-133 Reports, to establish a
Howard process to request, ensure receipt, and review subrecipient A-133 audit
reports. This policy was modified and jointly adopted by both ORA and RFA on
February 3, 2006 and among other procedures, requires RFA to review
subrecipients’ A-133 audit findings, determine actions required, and inform ORA
of the specific actions taken.

OIG Comments

Howard’s actions appear appropriate and generally responsive to addressing most
of the audit recommendations. The issuance of new subaward management and
monitoring procedures and the consolidation of all grant management activities
into the new Office of Sponsored Programs should improve management and
oversight of Federal grant funds passed-through to subrecipient organizations.
Nevertheless, since the lack of adequate monitoring of subrecipient A-133 audit
reports has been a repeat audit finding reported in Howard’s own annual A-133
audit reports since at least FY 2000, we believe that further University actions are
needed to address certain aspects of recommendations 3.1.a. and 3.1.c.

Specifically, with regard to recommendation 3.1.a., Howard needs to ensure
effective implementation of its new subaward monitoring process by focusing on
developing methods for assessing the risk of subrecipient noncompliance in order
to properly establish subawardee monitoring plans. The University’s assessment
of an organization as a higher or lower risk subawardee is the key factor in



                                     28
determining the extent of Howard monitoring required of pass-through NSF grant
funds. As part of this subrecipient risk assessment, Howard should review the
organization’s A-133 audit reports to identify any audit issues that require ORA to
include special award conditions in the University’s subaward agreement to
mitigate any risk to pass-through NSF funding.

Lastly, with respect to recommendation 3.1c., Howard’s new process to ensure
subrecipient A-133 compliance, delineated in A Policy for the Collection and
Maintenance of, and Action Upon Relevant A-133 Reports, needs to be officially
incorporated in the University’s Manual for Research and Other Sponsored
Programs. Procedures are only effective when integrated into day-to-day staff
responsibilities and placed in a location where cognizant employees can easily
find and reference them. During our audit, both ORA and RFA working-level
staff were not aware of these procedures even though ORA management stated
that the process had been implemented six months prior.




                                    29
4. Support for Faculty Salary Costs Needs to be Improved

Howard needs to improve oversight of faculty salary charges to NSF grants to ensure the
costs are in compliance with Federal cost principles. While Howard was largely able to
provide documentary evidence supporting $242,141 of FY 2004 non-faculty salaries
charged to the five audited grants, it did not have adequate support for $176,548 in
faculty salaries. Our review of the faculty salaries disclosed (i) a lack of accurate after-
the-fact activity reports to support $141,468 (80 percent) of faculty salary charges and (ii)
an absence of documentation to support the faculty salary computations. Further, we
questioned $91,877 or 52 percent of the $176,568 of Howard faculty salaries claimed in
FY 2004 because the expenditures were in excess of the faculty member’s base salary,
were duplicate payments, exceeded NSF’s two-ninths limitation for summer salaries, or
did not have adequate supporting documentation for the salary amount claimed.

This occurred because Howard did not have an effective process for ensuring faculty
salary charges on NSF grants complied with Federal cost principles and did not provide
for an independent internal review to ensure the accuracy of its effort reporting system.
This systemic weakness also raises questions as to the reliability and integrity of
Howard’s management of senior staff costs of $588,064 budgeted in all NSF grant funds
obligated during FY 2005. Such improper charges result in diverting limited NSF
research funds that could be used for other awards, thereby preventing NSF from
distributing funds to those projects most in need of support.

Howard’s Online Labor Effort Reporting System

Since 2002, Howard has used an online Effort Reporting System (ERS) to generate after-
the-fact activity reports. These activity reports confirm the predetermined allocations of
labor effort charged to each sponsored award and all other Howard activities by faculty
and professional staff members. A User Manual was issued in January 2002 delineating
the policies and procedures for the ERS. The after-the-fact activity reports, prepared
three times a year for the academic fall, academic spring, and summer terms, reflect the
percentage of time each faculty member devoted to each sponsored project and Howard
teaching, research, and administrative responsibilities. In turn, Howard uses these
percentages to confirm the actual salary costs to be charged by each faculty member to
the different funding sources in the reported term.

For Federal awards, Howard initiates such salary distribution by submitting a Personnel
Recommendation Form (PR) for the faculty and staff member when he/she is first
assigned to work on a particular award. Once approved, RFA encumbers the funds in the
accounting system and the Payroll Department enters the predetermined compensation
amount to be charged to the award activity in Howard’s payroll system. For each
reporting period, the faculty and staff members are required to certify that the labor effort
distribution percentage in the after-the-fact activity report reflects a reasonable estimate
of the actual effort expended during the reporting period. Howard ERS procedures also
require faculty and staff to report cost shared effort when they certify their activity
reports and make salary distribution adjustments if there are significant changes in the



                                             30
reported effort percentage allocations or there are changes in funding sources. In
addition, the Howard procedures require an annual internal review of the ERS system to
ensure it is operating in conformance with its own procedures as well as the Federal cost
principles.

Federal Requirements for Allowable Faculty Salary Costs

OMB Circular A-21, Cost Principles for Educational Institutions, section J.10 provides
criteria for determining allowable compensation for personal services under Federal
assistance grants. These cost principles set forth acceptable methods for documenting a
researcher’s salary distribution based on time and effort attributable to particular
Federally funded research projects. Institutions are required to establish a system for
distribution of payroll costs to benefiting awards and must maintain after-the-fact-activity
reports that “allow for confirmation of activity allocable to each sponsored agreement…
[that] reasonably reflect the activities for which the employees are compensated…”

Further, the Circular specifies that faculty salary charges for work performed on Federal
grants is allowed based on the “faculty member’s regular compensation” and “should not
exceed the proportionate share of the base salary for that period.” Only in unusual cases
do the Federal cost principles allow for faculty salary charges for work beyond the
normal academic responsibilities, which would represent extra compensation.
Specifically, grant funds should not be used to increase the base salary of faculty
members unless such extra compensation is “specifically provided for in the agreement or
approved in writing by the sponsoring agency.”

However, we found Howard lacks adequate oversight of faculty salary charges to NSF
grants to ensure such costs are in compliance with Federal cost principles. Specifically,
our audit disclosed that (i) after-the fact-activity reports did not accurately report effort in
the period of performance to support the actual salary costs charged to NSF awards, (ii)
justifications for salary charges were not in compliance with Howard’s documentation
requirements clearly showing the faculty member’s base salary and percentage of effort
devoted to the NSF grant, and (iii) $91,877 of questioned extra salary compensation and
other costs were charged to NSF grants.

Effort Reporting System Does Not Generate Accurate After-the Fact Faculty Activity
Reports

Howard’s after-the fact activity reports did not accurately reflect the correct amount of
time faculty members worked on the 5 audited NSF awards in the FY 2004 academic and
summer sessions. Additionally, we found that none of the $172,208 that Howard claimed
for cost shared salaries (10% of required NSF cost sharing) was reported and certified by
faculty and staff members in the activity reports.

Specifically, review of all FY 2004 after-the-fact activity reports disclosed that seven of
the nine faculty members, that charged $141,468 of salaries to the 5 audited NSF grants,
did not correctly report the distribution of their salaries. This occurred because Howard



                                              31
9-month academic salary was often paid over a 12-month period and/or the Personnel
Recommendation Forms were processed late, thus shifting reported labor effort to the
wrong ERS reporting period. While it was a common and acceptable Howard practice
that six of the faculty members had elected to have their academic year salaries paid over
a 12-month period, the ERS should have been modified to accurately report that such
labor effort occurred over the 9-month academic year and not over a 12-month period. In
addition, we found that the Personnel Recommendation Forms for seven of the nine
faculty members were processed late, ranging from 8 days to 4 ½ months, which
inappropriately shifted NSF labor effort reported to the subsequent ERS reporting period.
Specific examples of some of the weaknesses noted follow:

•    A faculty member was to be paid a summer salary of $24,829 ($5,643 bi-weekly)
     from May 15 to July 15, 2004 for full-time work (100%) on an NSF grant. This
     summer salary was in addition to the individual’s Howard academic salary.
     However, because the individual elected to have his 9-month academic salary paid
     over a 12-month period, the faculty member received both his NSF-funded summer
     salary and a portion of his academic salary during the summer. As a result, his
     Summer 2004 after-the-fact activity report incorrectly reported NSF effort of only
     39%, while in fact he actually was funded by and was working 100 percent on the
     NSF grant.

•    The PI on another NSF grant was to be paid $15,000 in summer salary from June 1 to
     August 15, 2003. However, the Personnel Recommendation Form was submitted late
     and not approved until August 15, 2003, thus the $15,000 summer salary was not paid
     until September 2003. As a result, the PI’s after-the-fact activity report for Summer
     2003 erroneously reflected no NSF labor effort, while the Academic Fall 2003
     reporting period incorrectly included the summer labor effort.

Additionally, we found that the reporting periods, specified in the ERS User Manual, did
not coincide with the faculty appointment periods specified in Howard’s Faculty
Workload Policy as reflected in the following chart:

            Reporting Periods         Period per Faculty        Period Per ERS
                                       Workload Policy                Manual
           Summer                     Mid-May to first          June 1 to July 30
                                      week in August            (2 months)
                                      (3 months)
           Academic Fall              August 16 to              August 1 to Dec 31
                                      December 31 10            (5 months)
                                      (4.5 months)
           Academic Spring            January 1 to May 15       January 1 to May 31
                                      (4.5 months)              (5 months)


10
         The Fall and Spring reporting periods are based on the definition for “Academic Year” in the
Faculty Workload Policy, which states “Academic Year refers to the 9-month period beginning each year
on or about August 16th and ending approximately the 15th of the following May.”


                                                 32
Although the Faculty Workload Policy states “Faculty holding nine-month appointments
retain eligibility for three months of extramural support during the summer,” the ERS
reporting periods established the Academic Year as 10 months and the Summer session
as 2 months. Howard official stated that the ERS reporting periods in its User Manual
are incorrectly stated and need to be appropriately changed.

In addition, we found that the faculty certification of their activity reports was not timely.
Our review of all faculty after-the fact-activity reports for the Fall 2003 and Spring 2004
reporting periods disclosed that the certifications were completed 7 months and 6 months,
respectively, after the end of the reporting period. These delays were caused by (1) RFA
not generating timely activity reports for faculty certification until three months and two
months, respectively, after the ERS established dates and (2) the faculty not timely
certifying the activity reports for 3 months and 1 ½ months, respectively, after receipt,
instead of the 2-week period required by ERS procedures. Untimely certifications raise
concerns about the reliability of the ERS activity reports and the associated labor charges.

Salary Justification Records Do Not Always Support Charges to NSF Grants

Contrary to Howard’s own requirements, our review of the Personnel Recommendation
Forms disclosed that the justification sheets did not evidence the accurate computation of
faculty salary charged to NSF grants by clearly identifying the member’s Howard base
salary and percentage of effort devoted to the award. Also, Howard did not have annual
employee contracts documenting the base salary and appointment period for its faculty
members.

On June 20, 2002, Howard issued Compliance with Requirements on Payment for
Personnel Services to provide guidance for ensuring that it complied with Federal and
Howard employee compensation regulations. The guidance required that salary charges
to Federal grants be initiated using a Personnel Recommendation Form and a
“Justification Sheet,” to include the percentage of effort to be devoted to a grant and the
Howard base salary for the employee as follows:

       •   “…the amount of salary funded by the University based on a nine or twelve-
           month appointment as is applicable, as well as percentage of effort and
           appointment period.”
       •   “…the amount of salary funded by grant or contract, as well as percentage of
           effort and appointment period.”

However, our review of Personnel Recommendation Forms disclosed that “justification
sheets” for 7 of the 9 faculty members either did not specify the base salary and/or the
percentage of effort worked to evidence correct computation of salary charged to the 5
audited NSF grants. For the 2 remaining faculty members, the arithmetic computation in
the “justification sheets” did not support the salary amount charged. For example, the
justification sheet for PI summer salary of $7,500 on NSF grant No. 0000273 only stated
that the faculty member was “… the Alliance Coordinator for the Washington-Baltimore
Hampton Roads Alliance for Minority Participation (WBHR-LSAMP) Project.” No


                                             33
other data was provided in the Personnel Recommendation Form and “justification sheet”
to document how the $7,500 salary amount was derived.

In addition, our analysis disclosed that Howard did not have employee contracts
documenting the annual base salary and appointment period for its faculty members.
According to Howard officials, the only document available for verifying each faculty’s
base salary was the annual Operating Budget, which listed the salary for each Howard-
funded employee by Department. However, for the nine faculty members reviewed, our
analysis disclosed that the Operating Budget salaries agreed with the FY 2004 salaries in
Howard’s payroll system for only two individuals. Specifically, the total salary for the
nine faculty members in the Operating Budget totaled $754,183, while the total in the
payroll system totaled $780,538, a difference of $26,355. As such, the salaries reflected
in the Operating Budget could not be used as an accurate source to permit verification of
a faculty member’s base Howard salary.

Questioned Salary Costs Charged to NSF Grants

Additionally, $91,877 or 52% of the $176,548 of total FY 2004 charges for faculty
salaries were questioned costs. Of this amount, 13 percent or $22,331 was not supported
by adequate documentation (see Appendix B for details by grant). The remaining
questioned costs of $69,546 were for unapproved augmented faculty salaries, duplicate
salary payments, and summer salaries exceeding NSF’s two-ninths rule.

   •   Unapproved Extra Faculty Compensation

   Contrary to Federal cost principles, Howard’s Faculty Workload Policy allowed
   faculty members to augment their base salaries without specific Federal agency
   approval. The January 21, 2000 Policy states:

       “As a means of fostering greater productivity in faculty research, The Strategic
       Framework for Action (SFA) calls for consideration of a compensation plan for
       augmentation of academic year faculty salaries with income from grants…this
       workload policy will permit full-time faculty members to obtain …the equivalent
       of one day per week additional compensation from externally-funded grant…”

   As such, Howard augmented the salaries for four of the nine faculty members from
   NSF grant funds by a total of $34,838 or 20% of total FY 2004 salary costs, without
   requesting and obtaining specific NSF approval. Pursuant to the NSF grant
   proposals, two of these four faculty members, who were paid extra compensation of
   $14,050, had proposed release time to work on the grant. However, these PIs never
   obtained approval for release time from Howard, thus resulting in both individuals
   improperly receiving extra compensation beyond their base faculty salary. For the
   remaining two faculty members, the NSF program manager stated he had not
   received or approved any specific requests for the extra compensation of $20,788.




                                           34
     •   Duplicate Salary Payments

     Due to a payroll error, duplicate salary of $22,704 was paid to one faculty member.
     The faculty member was to be paid for work on NSF grant No. 9909040 during the
     summer of 2003. The Payroll Technician mistakenly entered the summer salary in
     Howard’s automated payroll system, as well as in their manual system for processing
     summer pay. As a result, the individual received total salary payments from the NSF
     grant totaling $45,407.

     Subsequent Howard staff reviews of the faculty member’s salary charged to the NSF
     grant should have identified the duplicate payments. However, there is no evidence
     that the Payroll Supervisor, the RFA grant accountant, the PI, or the Grant Project
     Director evaluated the accuracy of the summer 2003 salary costs claimed on the
     subject NSF grant. When the Project Director requested that budgeted funds be
     re-allocated to cover the account shortfall for faculty salaries, neither the Project
     Director, the PI, or the RFA grants accountant realized that the reason for the
     re-allocation was to cover the duplicate salary payments. We found that RFA
     processed the re-allocations without substantive justification from the PI or Project
     Director, which in this case, circumvented the control objectives of the budget
     process. Based on our inquiries, Howard returned the excess salary of $22,703 to the
     NSF grant on March 24, 2005.

     •   Summer Salaries Exceed NSF’s Two-Ninths Rule

     Contrary to the NSF’s rule limiting PI summer salaries to two-ninths of their
     academic year salary,11 we found that three of the nine faculty members exceeded this
     limitation by $12,004 or seven percent of total salaries claimed. Specifically, one
     faculty member exceeded the limitation by $10,466 because the individual received a
     summer salary of $10,620 from an NSF-funded subaward in addition to summer
     salary of $19,856 from another award directly funded by NSF. As a result, the total
     NSF 2003 summer salary exceeded two-ninths of the PIs base salary by $10,466.

     •   Unsupported Salaries

     Howard did not have adequate documentation to support $22,331 in salary costs
     claimed for two of the nine faculty members. Specifically, Howard could not
     document the basis for the agreed-upon salary of $15,000 that was charged to one
     NSF grant for an Adjunct Professor. For the other faculty member, there was


11
          Provision 611.1.b.2. of the NSF’s Grants Policy Manual states “…NSF policy on funding summer
salaries (known as NSF’s two-ninths rule) remains unchanged: proposal budgets submitted should not
request, and NSF-approved budgets will not include, funding for an individual investigator which exceeds
two-ninths of the academic year salary. This limit includes summer salary received from all NSF-funded
grants.”



                                                  35
     similarly no information provided in the Personnel Recommendation Form to explain
     how the $7,331 charged to the NSF grant was derived or calculated.

Howard Needs to Assign Clear Responsibility for Oversight of Faculty Salary Charges to
Federal Awards

These weaknesses occurred because Howard’s organizational structure and processes did
not ensure faculty salary costs claimed were in compliance with NSF and Federal grant
requirements. Our review disclosed that contrary to Howard’s ERS procedures and
Federal cost principles,12 Howard did not conduct an independent internal evaluation of
its payroll distribution system to ensure the system’s effectiveness and compliance with
Federal requirements. As such, Howard management was not aware of the ERS design
problems that resulted in the inaccurate after-the fact-activity reports supporting faculty
costs charged to NSF grants.

Furthermore, we found that no Howard office was tasked with reviewing the Personnel
Recommendation Forms for faculty members to ensure compliance with Federal cost
principles. Our review disclosed that the PIs and Departmental officials as well as the
Office of Provost staff, involved in initiating and processing these documents, did not
have the technical expertise in Federal cost principles to ensure the faculty salaries were
properly computed. While RFA staff had the required expertise, grant accountants stated
that this was not their assigned role. As a result, no Howard office assumed this
responsibility.

In the absence of such oversight, Howard also had not identified other weaknesses in its
internal control processes including the lack of employee contracts to document
authorized base salary for its faculty members and the absence of current written payroll
procedures for processing salaries charged to Federal awards. Human resource officials
stated that there is no source documentation at the university to validate the accuracy of
faculty member salaries specified in the Howard operating budget, which is the only
source of base salary information. In addition, payroll officials stated that there is not a
current payroll manual documenting the process to be followed for charging faculty
salary to Federal awards. We believe that such payroll procedures are essential
particularly given that Howard uses a separate, manual system to process summer salaries
on Federal awards rather than using Howard’s automated payroll system. Such written
procedures would have reduced the risk of the payroll error that resulted in the duplicate
salary payments identified during our review.

With regard to the Howard extra faculty compensation policy, the Office of Provost
stated that Howard was not aware that such overload compensation required specific
Federal agency approval. The official informed us that this workload policy was
established essentially as an incentive to encourage faculty members to perform research
and seek external funding for such efforts. However, as a result of our audit, he stated

12
         Paragraph J10.b(2)(f) of OMB Circular A-21 requires that the payroll distribution system “will
provide for independent internal evaluations to ensure the system’s effectiveness and compliance with
above standards.”


                                                    36
that Howard is re-evaluating this policy as well as the appropriateness of the institutional
base salary used in computing faculty summer salaries charged to Federal awards.

Also, the Office of Provost official stated that there were no established Howard
procedures for how to process and/or account for release time approved under Federal
grants. He informed us that in cases when his office is aware that Howard has granted
release time to a faculty member, his staff takes the necessary steps to ensure that the
individual’s salary from Howard is properly reduced by the same amount of salary
charged to and funded by the Federal grant, thus precluding the faculty member from
receiving extra compensation above Howard base salary. However, the Office of the
Provost official stated his office is often not aware when release time is granted because
each individual Howard department generally approves it.

Consequences of Inadequate Internal Controls

The lack of adequate Howard internal control procedures to manage and oversee faculty
salary charges to NSF grants raises questions as to the reliability and integrity of the
amounts claimed. Howard is unable to ensure that the faculty costs it claimed were in
compliance with Federal and NSF requirements, as evidenced by the questioned costs
identified for 52 percent of the total FY 2004 faculty salary costs reviewed. As a result of
these systemic problems, Howard has an increased risk that additional questioned costs
will be charged to NSF grants from the budgeted senior staff costs totaling $588,064
included in NSF funds obligated during FY 2005. Such improper charges result in
diverting limited NSF research funds that could be used for other awards, thereby
preventing NSF from distributing funds to those projects most in need of support.

Recommendations

We recommend that NSF’s Division Directors for the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA), coordinate with the
cognizant audit agency, as needed, to implement the following recommendations:

4.1    Require Howard to improve its internal controls over faculty salary charges to
       NSF awards as follows:

       a. Howard should perform the required internal evaluation of its ERS processes
          to ensure the integrity of the system to produce after-the-fact activity reports
          that are timely, accurate for the reporting period, and evidence that faculty
          salary charges on NSF grants are in compliance with Federal cost principles.

       b. Howard should establish:

           •   ERS reporting periods consistent with faculty appointment periods,
           •   Timeframes to ensure timely processing of Personnel Recommendation
               Forms,
           •   Annual employment contracts to document faculty base salary,


                                             37
   •   Procedures documenting current payroll procedures for faculty salaries,
       and
   •   Procedures to account for faculty release time.

c. Howard should clearly define and assign responsibility to university staff with
   Federal grant expertise to oversee and monitor faculty salary charges to NSF
   grants to ensure compliance with NSF and Federal requirements to include
   reviewing the accuracy and timeliness of Personnel Recommendation Forms
   and after-the-fact activity reports.

d. Howard should revise its Faculty Workload Policy to require specific written
   agency approval for augmenting faculty compensation from NSF grant funds.

Howard Response

In its response to the draft report, Howard delineated actions taken or planned to
be taken that will help ensure faculty salary charges to NSF grants are compliant
with both NSF and Federal requirements. The University stated that it initiated
remedial action to address potential problems with faculty salary costs on
sponsored research agreements when it first became aware of the issue in the
Spring of 2005.

With regard to recommendation 4.1a, Howard has obtained the services of a
consultant to effect ERS changes to produce accurate after-the-fact activity
reports to support faculty salary charges to Federal awards. Howard stated that
the computer program changes are currently in the final stages of testing prior to
applying them to the production version of the ERS. Also, the University stated
that the Office of Comptroller has developed procedures for RFA staff, managers,
academic administrators, and end-users to assure timely transmission and
certification of the Effort Certification Reports.

Furthermore, Howard indicates that it has undertaken a series of other initiatives
to address the remaining audit recommendations. Specifically, on January 10,
2006, the President approved the issuance of “Interim Guidelines for Evaluating
Personnel Recommendations of Faculty Members Conducting Sponsored
Research” to ensure faculty salary charges to Federal awards could be explicitly
documented as required by Federal cost principles and NSF requirements. Also,
other University actions are currently underway (1) to revise the Faculty
Workload Policy to establish a clear requirement that any supplemental faculty
salary payments on Federal grants be specifically approved by the sponsoring
agency and (2) to develop University policy and procedures on faculty release
time and annual documentation of institutional base salary for faculty members.

Concomitantly, Howard reported that policies are being developed to assign
responsibility to the Director of RFA, whose grant accountants possess requisite
expertise, to review and monitor the new University process to ensure faculty


                                    38
      salary charges claimed are in compliance with NSF and Federal requirements.
      Howard plans to have its Faculty Workload Policy revised by April 1, 2006 and to
      be fully compliant with NSF and Federal standards by July 1, 2006.

      OIG Comments

      Howard’s actions appear appropriate and responsive to the audit
      recommendations. It is important to ensure that all new University policies and
      procedures are formalized and documented in writing, responsibility is formally
      assigned to Howard’s offices, and implementation is monitored to ensure efficient
      and effective operations for the support of faculty salary costs charged to Federal
      awards.

4.2   Resolve the $91,877 in questioned faculty salary, and the associated fringe
      benefits and Facilities and Administrative (F&A) costs of $46,918 identified by
      the audit. (See Appendix B for Schedule of Questioned Costs by NSF award
      number)

      Howard Response

      The University accepts the recommendation and will work with NSF to resolve
      the $91,877 in questioned faculty salary costs. Additionally, Howard’s Office of
      Comptroller developed a new Policy for Cost Transfers to preclude future
      duplicate salary payments caused by lack of adequate University review of
      justifications for reallocation of budgeted costs under a Federal award.

      OIG Comments

      Howard’s proposed corrective action appears appropriate. However, our review
      of the new Policy for Cost Transfers disclosed that these procedures are primarily
      directed to transfer of costs from one sponsored project to a different project and
      not reallocation of budgeted funds within the same sponsored project. Howard
      may want to clarify this area in its new policy if its intended purpose was to
      address the procedural weaknesses that resulted in the duplicate salary payment.
      Also, Howard needs to officially incorporate the new Policy for Cost Transfers
      into its Manual for Research and Other Sponsored Programs or Internal
      Procedures Handbook . Procedures are only effective when integrated into day-
      to-day staff responsibilities and placed in a location where cognizant employees
      can easily find and reference them.




                                          39
5. Payment of Stipends to Non-Howard Trainees Needs Improvement

Contrary to OMB regulations, Howard lacked sufficient documentation in its accounting
records to support FY 2004 stipend payments of $109,700 made to trainees from outside
organizations. As a result, we found that 4 individuals had received duplicate payments
of $2,800. In addition, the trainees were not required to provide actual receipts to support
a $500 travel allowance paid, estimated to total as much as $30,000 annually.

Under NSF grant ESI 0102295, middle and high school teachers in the Washington D.C.
area were trained to develop advanced skills and understanding in Science, Mathematics,
and Technology education content. Approximately 60 teachers were trained annually
under this 3-year NSF grant. Each teacher received a maximum stipend of $2000
consisting of $900 for attending 9 training sessions, $500 for mentoring another teacher
in their school in their newly learned skills, $100 for attending a mentoring meeting, and
a $500 travel allowance for attending a professional conference/training session. The PI
showed us examples of the documentation available to support payments for the various
stipend allowances as follows:

     Stipend Purpose            Stipend Amount                         Documentation

Attendance at 9 sessions                $900            Sign-in sheets for each session
Mentoring                               $500            Mentoring checklist and/or mentoring log
Mentor/mentee meeting                   $100            Sign-in sheet for mentoring session
Travel allowance                        $500            A request for the conference & training
                                                        stipend

Total Maximum                          $2000

OMB Circular A-110 requires a recipient’s financial management system to provide
“Accounting records including cost accounting records that are supported by source
documentation.” However, Howard’s Accounts Payable Department made the stipend
payments based solely on a PI- provided list of trainees with stated dollar amounts,
without any supporting documentation.

Our review of available documentation maintained by the PI disclosed the lack of a
system documenting the purpose of the various stipend payments made to each trainee
and the absence of an organized system of filing and maintaining source documentation
to support the validity of such payments. Of the total $109,000 of FY 2004 stipend
payments, we selected a sample of 22 payments, totaling $12,400 or 11 percent, and
worked with the PI for several hours to locate available documentation in her files. These
payments were made to 22 of the 109 teacher trainees13 that received payments during the
year. First, we found that the PI did not track the purpose of each trainee payment made.

13
         Actual payment of the various stipend allowances was generally paid individually based on trainee
completion of required activities. Thus, payments made in FY 2004 included the students trained in the
current year as well as prior years.



                                                   40
Thus, she was not able to determine if a $500 payment was made for the mentoring or
travel allowance. As such, she did not have a record of the various stipend allowance
paid by individual trainee. The supporting documentation was very difficult to locate due
to the lack of a systematic filing system and the documentation was not always complete.
For example, some of the sign-in sheets for the training sessions were not dated. After
much effort, we were generally able to find documentation to support payments for
attendance and mentoring, which accounted for $1500 of the stipend maximum of $2000
that could be paid to each trainee.

However, there was a lack of adequate documentation to support the $500 travel
allowance payment. While the PI generally maintained copies of a trainee request for the
travel allowance to attend an upcoming conference/training class, she did not require
submission of receipts to validate attendance and document actual expenses incurred
because she considered the allowance to be an entitlement. Our review of available
records for 4 of the sampled 22 trainees disclosed that only one had submitted travel
receipts. Since the lack of supporting documentation did not permit us to determine the
total dollar value of actual travel allowances paid under the grant, we estimate that
payments could total up to $30,000 for the 60 participants trained annually. For the
3-year life of the grant, this amount could have totaled $90,000 or 8 percent of total
authorized NSF grant costs.

Additionally, we found that 4 of the 109 trainees paid in FY 2004 received duplicate
payments totaling $2,800. Due to the high risk of erroneous payments based on the lack
of documentation for tracking the various stipend payments by purpose and individual
trainee, we expanded our review in this regard from the sampled 22 students to all 109
students paid in FY 2004. We totaled all payments made during the fiscal year by each
trainee to identify any individuals that received total payments above the $2000
maximum stipend allowance. The four trainees that received duplicate stipend payments
are listed in Appendix C.

Considering the lack of a system for tracking the purpose of the payments made, we
believe that it is possible that similar duplicate payments were made to other trainees
during the 3-year NSF award term. Considering that the stipends constituted 30% of total
grant expenditures of $1,035,006 as of June 30, 2004, there is a high risk that other
duplicate payments were included in the $306,000 expended for trainee stipends. These
weaknesses occurred because Howard relied on the PI, rather than trained financial staff,
to review and monitor these grant charges. As such, there was a lack of sufficient
documentation to support that the stipend payments were valid NSF grant costs.




                                           41
Recommendations

We recommend that NSF Division Directors for the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA), coordinate with the
cognizant audit agency, as needed, to implement the following recommendations:

5.1    Require Howard to develop procedures for maintaining adequate source
       documentation in their accounting records to support stipends paid to outside
       participants. This should include a tracking system that identifies the purpose of
       the stipend payment to ensure duplicate payments are not made to trainees.

5.2    Resolve the $2,800 in questioned FY 2004 student payments (See Appendix C for
       Schedule of Questioned Student Stipends).

       Howard Response

       Howard acknowledges that while the PI for the subject NSF grant was not able to
       provide complete documentation for the student stipend payments, it states that
       the University’s procedures do require the maintenance of adequate source
       documentation. With regard to the recommendations, the University believes that
       the new PI certification program being developed by the Office of Sponsored
       Programs will provide the required training in Federal and University policies and
       procedures to permit PIs in the future to acquire the knowledge needed to
       properly manage such payments as well as their overall sponsored projects.
       Additionally, Howard agreed to work with NSF to resolve the $2,800 of duplicate
       stipend payments.

       OIG Comments

       Howard’s proposed action to establish a PI certification program to ensure
       training of its faculty members in Federal and University policy and procedures
       for grants management appear appropriate as an acceptable alternative to address
       the intent of audit recommendation 5.1.




                                           42
                                                                        Appendix A

                Schedule of Claimed Cost-Sharing for FY 2000- 2004

    NSF Award          NSF Grant       Claimed NSF Cost Sharing
     Number           Requirements
                                          Total            Howard       Subawardee
                                         Claimed           Portion        Portion

HRD 9909040            $1,425,000        $3,798,040       $3,798,040              $0

HRD 0000273            $7,952,496        $7,953,056       $2,515,670      $5,437,386

ESI 0102295               $77,400              $77,086       $77,086              $0

HRD 0302788              $458,051          $462,393        $462,393               $0

Total Cost Sharing     $9,912,947       $12,290,575       $6,853,189      $5,437,386

Determination could not be made whether the $12,290,575 of claimed Howard cost
sharing had a direct benefit to NSF awards. Howard’s accounting system did not track
cost sharing of $6,853,189 to specific NSF awards and the documentation to support
subrecipient cost sharing of $5,437,386 was inadequate.




                                          43
                                                                                    Appendix B

                Schedule of Questioned FY 2004 Faculty Salary Costs

                                                                        Fringe
                           Reasons for Questioned Costs                 Costs    Indirect Costs

                                              Exceeds                                               Total
 NSF Award    Augmented Unsupported Duplicate NSF 2/9                                             Questioned
  Number       Salaries   Salaries  Payments   Rule   Subtotal 21.60%            Rate   Dollars     Salary


   NOTES          A             B          C         D

HRD 9909040                               $22,704   $10,466   $33,170    $7,165 8%       $3,227       $43,562

HRD 0000273                     $22,331                       $22,331    $4,823 8%       $2,172       $29,327


ESI 0102295      $24,859                              $788    $25,647    $5,540 49%     $15,282       $46,468

REC 0229308       $9,979                              $750    $10,729    $2,317 49%      $6,393       $19,439

Totals           $34,838        $22,331   $22,704   $12,004   $91,877 $19,845           $27,073      $138,796


Note A – Augmented Salaries

OMB Circular A-21, Cost Principles for Educational Institutions, Paragraph J.10.d
requires that faculty salary charges for work performed on federal grants is allowed based
on the “faculty member’s regular compensation” and “should not exceed the
proportionate share of the base salary for that period.” Only in unusual cases do the
federal cost principles allow for faculty salary charges for work beyond the normal
academic responsibilities, which would represent extra compensation. Specifically, grant
funds should not be used to increase the base salary of faculty members unless such
extra compensation is “specifically provided for in the agreement or approved in writing
by the sponsoring agency.”

Contrary to the OMB Circular A-21, Howard’s Faculty Workload Policy inappropriately
allowed faculty to receive “the equivalent of one day per week additional compensation
from externally- funded grant.” As a result, on NSF grants ESI 0102295 and REC
0229308, 4 investigators inappropriately augmented their Howard base salary by
$34,838 without obtaining specific NSF approval.

Note B –Unsupported Salaries

In accordance with OMB Circular A-21 standards, Howard’s Compliance with
Requirements on Payment for Personnel Services, dated June 20, 2002, required that
salary charges to Federal grants be initiated using a Personnel Recommendation Form
and include a “Justification Sheet” specifying the percentage of effort to be devoted to a
grant and the Howard base salary for the employee. Contrary to these requirements,


                                               44
Howard did not have adequate documentation to support $22,331 in salary costs claimed
for 2 faculty members on award HRD 0000273. Specifically, neither the percentage of
effort or the Howard base salary was reflected in the Justification Sheets for either the
Adjunct Professor nor the other faculty member to explain how the $15,000 and $7,331,
respectively, charged to the NSF grant was derived or calculated.

Note C – Duplicate Salary Payment on HRD 9909040

A Howard payroll error resulted in double salary payments to one researcher during the
summer of 2003. The overpayment of $22,704 was credited to the NSF grant on March
24, 2005. However, at that time, no adjustments were made for the associated fringe
costs (21.6%) of $4,904 and indirect costs (8%) of $2,209.

Note D – Exceeds NSF’s 2/9th Rule for Summer Salary:

Provision 611.1.b.2 of NSF’s Grants Policy Manual states “…NSF policy on funding
summer salaries (known as NSF’s two-ninths rule) remains unchanged . . . NSF-
approved budgets will not include funding for an individual investigator which exceeds
two-ninths of the academic year salary. This limit includes summer salary received
from all NSF-funded grants.” Contrary to the subject NSF requirement, three
investigators inappropriately charged salaries exceeding two- ninths of their Howard
academic year salary totaling $12,004.




                                           45
                                                                        Appendix C

                       Questioned FY 2004 Student Stipends

Under NSF grant ESI 0102295, we identified $2,800 of duplicate student stipend
payments made in FY 2004.


                           Student Name        Overpayment

                            XXXXXXXX                    $900
                            XXXXXXX                     $500
                            XXXXXXX                     $900
                             XXXXXX                     $500

                                Total                 $2,800




                                          46
                                                                      Appendix D


              Howard University Response to the Draft Audit Report

         Note: Howard’s response included the following 10 attachments that
                       are not included in this audit report.

Attachment 1: Organization Chart for Research and Compliance

Attachment 2: Manual for Research and Other Sponsored Programs

Attachment 3: Internal Procedures Handbook

Attachment 4: Requirements to Implement Accounting for Cost Sharing of Salaries

Attachment 5: Policy for Cost Sharing

Attachment 6: February 17, 2006 Howard Letter to Subawardees

Attachment 7: Subagreement Template

Attachment 8: A Policy for the Collection and Maintenance of, and Action Upon
                  Relevant A-133 Reports

Attachment 9: Interim Guidelines for Evaluating Personnel Recommendations of
                    Faculty Members Conducting Sponsored Research

Attachment 10: Policy on Cost Transfers




                                          47
       HOWARD UNIVERSITY
RESPONSE TO NSF DRAFT AUDIT REPORT



          February 24, 2006



           Submitted by:

XXXXXXXXXXXXXXXXXXXXXXXXXXXX
             and
XXXXXXXXXXXXXXXXXXXXXXXXXXXXX
          XXXXXXXXX




                 51
PREAMBLE

The following response is organized to address each of the five areas of concern noted in
the NSF Draft Audit report. For each area, the response reviews the findings, comments
on the findings, and provides updates on actions taken regarding those findings. With
regard to each recommendation, it also delineates actions taken prior to the September 6,
2005 response to the NSF Discussion Draft, actions taken since September 6, 2005, and
actions planned with timelines for their completion.

Upon the recommendation of the Audit and Legal Committee of the Board of Trustees,
the president of the University has appointed a special advisor on matters related to
sponsored research, faculty engagement in research, and compliance. These matters
include working with the relevant University offices on a "compliance program"
implementation plan and a schedule for its roll-out, which would consist of articulation of
the University compliance program's purpose, goals, and functions; definition of the
scope of the University compliance program for both external and internal processes and
procedures; identification of the optimal organizational integration for the program;
recommendation of an initial title and job description for the plan's executor; and
specification of the initial resources required (e.g., staffing, space, technology). The
University has also appointed a new Chief Financial Officer, with the express charge of
improving internal controls.

In addition, the University intends to establish a new, cabinet level position, Vice
President for Research and Compliance, pending approval of the Board of Trustees later
this spring. The appointee shall serve as the University’s senior research officer and shall
have full authority to establish strict internal controls for grant and contract
administration and the authority to enforce strict compliance with all NSF, other federal,
and University policies.

The implementation of the new recommendations and systems contained herein has been
and will continue to be a community-based process. The University will phase in the
implementation in consultation with the University’s research community, the Council of
Deans, and other administrators and staff directly involved.

Howard University is poised and fully committed to carry out all actions described within
this response to address the findings and recommendations of the NSF Draft Audit report.

1.     INTERNAL CONTROLS

A.     Review of Findings

1.     Comments on Findings

We do not dispute the finding that further action is needed with regard to internal controls
over federal grant costs.



                                            52
2.     Updates on Actions Taken Regarding Findings

With regard to the findings in this section, a number of actions have been taken, are in
progress, or are planned that will improve internal controls over federal grant costs. The
University has identified a number of limitations in its organizational structures that are
being addressed to provide adequate internal controls over federal grant costs and ensure
compliance with federal rules and regulations. Specifically, we have initiated the
reorganization of the research administration process outlined as a part of the
University’s response to the NSF Discussion Draft. We have also published both a
Manual for Research and Other Sponsored Programs for principal investigators and an
Internal Procedures Handbook for Research Administration.

As proposed in the University’s September 2005 response, we have begun the process of
implementing the plan to appoint a new Vice President for Research and Compliance,
pending approval of the Board of Trustees, who shall report to the President of the
University. A Research Compliance Officer will be appointed also, who will report
directly to the Vice President for Research and Compliance. The Office of the Internal
Auditor will staff temporarily the research compliance office, particularly in the area of
auditing and monitoring, until a permanent staff can be appointed.

B.     Review of Recommendations

Recommendation 1.1.: We recommend that Directors for NSF’s Division of Institution
and Award Support (DIAS) and Division of Grants and Agreements (DGA) require
Howard to establish a program for monitoring and overseeing its NSF grant
management processes. At minimum, such a program should include:
a.    Establishing comprehensive and current written polices and procedures for
      administering and monitoring NSF grant funds to ensure compliance with NSF
      and Federal grant requirements. Such procedures should:
         • Clearly define the specific responsibilities for each university office
             associated with Federal grant activities, particularly the Office of
             Restricted Funds Accounting and the Office of Research Administration.
         • Provide for a process to ensure implementation of timely and appropriate
             corrective actions to address deficiencies identified in audit reports and
             other evaluations.

1.     Actions Taken Prior to Sept. 6, 2005

The University, recognizing the need to centralize authority for research-related functions
in order to provide accountability and coherence to its policies and procedures, had
considered a major reorganization of its research enterprise, and the University had
granted authority for the reorganization of research administration with all positions
reporting directly to the Vice Provost for Research as of September 2005. As reported
in the University’s response to the NSF Discussion Draft, a Manual for Research and
Other Sponsored Programs was under review for approval in the period prior to


                                            53
September 6, 2005. As previously noted, authority for a compliance officer was received
prior to September 6, 2005.

2.     Actions Taken Since Sept. 6, 2005

Reorganization of Research Administration Enterprise
A full reorganization of the research administration process was outlined as a part of the
University’s response to the NSF Discussion Draft and has now been implemented. (See
Attachment 1: Organizational Chart for Research and Compliance.) This reorganization
directly addresses the need identified by NSF to clearly define responsibilities with
regard to federal grant activities, including the documentation of cost-sharing as indicated
in Section 2 of this response.

As stated in the preamble, the University intends to establish a new, cabinet-level
position, Vice President for Research and Compliance, pending approval of the Board of
Trustees. The appointee shall serve as the University’s senior research officer and shall
have full authority to establish strict internal controls for grant and contract
administration, and the authority to enforce strict compliance with all NSF, federal, and
University policies.

The reorganization will abolish the current Office of Research Administration, which will
be replaced by the Office of Sponsored Programs. The chief administrator of this
operation will hold a new position, Associate Vice President for Sponsored Programs,
which shall be created from the current position of Associate Vice Provost for Research.
This position will report to the new Vice President for Research and Compliance.

The Associate Vice President for Sponsored Programs will have overall responsibility for
coordination of all day-to-day functions associated with research and contract
administration and direct coordination of four new administrative sections:
Grant/Contract Accounting, Post-Award Services, Research Administration, and
Research Education and Technical Assistance. Within the Research Administration
section, the Contract Review Specialist will maintain a close collaborative relationship
with the Office of General Counsel.

While this reorganization is not alone sufficient to ensure that policies and procedures
with regard to grants administration can be implemented and enforced, this structure will
allow the Provost, the Senior Vice President for Health Affairs, the Vice President for
Research and Compliance, the Chief Financial Officer, and the General Counsel to have
full authority to oversee all functions in the grants administration process, while
producing a seamless, coherent unit that will have the capacity to enhance the efficiency
and convenience of the research community, while promoting the research agenda of the
University. These senior leaders will work in tandem, and no research policy will be
promulgated in isolation. Moreover, as discussed below, the Associate Vice President for
Sponsored Programs will work directly with the Research Compliance Office to assure
that all Howard University policies and practices governing grant and contract
administration are in strict conformity with NSF and other federal regulations.



                                            54
Written Policies and Procedures
A Manual for Research and Other Sponsored Research directed largely toward Principal
Investigators and departmental grants administrators, which was also included in the
response to the discussion draft, has now been approved. (See Attachment 2: Manual for
Research and Other Sponsored Programs.)

Also, an Internal Procedures Handbook for Research Administration, which provides
procedures for staff in the Office of Sponsored Programs, has been developed and
approved. (Please see Attachment 3: Internal Procedures Handbook for Research
Administration.)

Research Compliance Office
Consistent with NSF recommendations, a Research Compliance Office has been
established by the University to provide oversight and direction for all compliance
aspects of the research enterprise at the University. This Research Compliance Office
will report directly to the Vice President for Research and Compliance, in order to
prevent the actual or apparent conflict of interest with individuals directly responsible for
sponsored research. The Research Compliance Office will be guided by the compliance
guidelines promulgated by the Department of Health and Human Services. The Research
Compliance Office will have benefit of a Research Compliance Advisory Committee
composed of members of the University’s research community, including representatives
from the University’s Institutional Review Board, Institutional Animal Care and Use
Committee, Committee on Radiation Safety and Committee on Biohazardous Waste.
The Research Compliance Office will work closely with the aforementioned Research
Education and Technical Assistance section in the Office of Sponsored Programs to train
faculty and administrators in all aspects of compliance with NSF, other federal and
University regulations. The Office of the Internal Auditor will assume initial
responsibility for certain aspects of the Office of Research Compliance on a temporary
basis, specifically in the area of auditing and monitoring.

External Consultation
The university has issued a Request for Proposals (RFP) to retain external consulting
firms for assistance in the area of sponsored programs and has now identified and is
negotiating with a national firm with expertise in working with national research
universities. In addition, the university has retained the services of a former vice
president for research at one of the nation’s leading research universities to ensure that
the practices implemented meet the standards and guidelines at major research
universities, to provide suggestions regarding organizational culture throughout the
university, and to recommend highly-respected external experts in the field to review and
advise on a range of issues across the research administration enterprise. The consultant
will also make recommendations regarding the overall effectiveness of the new
organization, suggest best practice techniques where needed, and advise as to personnel,
training, and evaluations. In addition, the Office of the Internal Auditor will provide a
formal review of the University’s implementation of the new systems within 90 days of
the final issuance of the NSF Audit report.



                                             55
Training
Training of PIs and staff associated with the research enterprise has continued and has
been expanded in recent months under the sponsorship of the Office of the Vice Provost
for Research and the Office of Research Administration. Training topics have included
Howard University Pre-Award and Post Award Procedures for Faculty and Staff; Non-
Resident Alien Tax Regulations; How to Find and Win Grants and Contracts; and
Utilization of the Illinois Researcher Information System. Most recently, an intensive
workshop for the entire research community was convened in the university’s new
research building on Implementation of Grants.gov.

Management, Monitoring, and Reporting
In October of 2005, the University hired a new Chief Financial Officer. The CFO has
implemented a major assessment of all accounting and finance operations. Subsequent to
completion of this assessment, a reorganization of the major accounting and finance
functions of the University will take place. The primary focus of the reorganization will
be to define specifically the responsibilities of the Office of Restricted Funds Accounting
and the accountability of the Office as it pertains to the financial reporting of sponsored
awards, grants, and contracts. The new accounting organization will be in place by July
1, 2006.

3.     Future Action Plans and Timeline for Completion

Reorganization of Research Administration Enterprise
Implementation of the reorganization discussed above will continue through the
remainder of the current academic year, and will be strategically phased in over the next
several weeks, with direct input concerning implementation obtained from several key
segments of the academic and research communities, namely, the Council of Deans, the
Research Advisory Council (a group of some of the most active researchers at the
University), and the designated research administrators from the twelve schools and
colleges. Several of these positions are new or re-titled positions with responsibilities for
these positions delineated in the position descriptions and annual review documents.
The University is in the process of identifying the best-qualified individuals from its
current staff to fill many of these positions on an interim basis until permanent
appointments can be made. As noted above, the compliance function has been
undertaken on an interim basis by the Office of the Internal Auditor. A search will be
conducted to fill organizational positions on a permanent basis.

Certification of Principal Investigators
As a part of the reorganization of research administration, as well as to ensure
compliance with University and federal grants/contracts polices and procedures, a new
Research Education and Technical Assistance section in the Office of Sponsored
Programs will be created in the immediate future. This section will be responsible for
implementing a Howard University certification program required of individual faculty
Principal Investigators as well as staff and administrators in the research administration




                                             56
enterprise. Faculty who are not current Principal Investigators will have the opportunity
to enroll in all seminars and workshops offered.

In conjunction with the Research Compliance Office, the Research Education section will
expand current training efforts, will develop a series of required seminars that will
constitute certification, and will implement a requirement that all current PIs begin
enrolling in seminars leading toward certification by January 1, 2007. The Research
Education section will provide information on progress and completion of the seminars to
the Research Compliance Office, which will advise regarding sanctions for PIs not
complying with certification requirements. Additional requirements for certification of
university administrators and staff will also be established. An additional range of
workshops beyond those required in the certification process will also be made available,
and workshops offered outside Howard University will be publicized to faculty,
administrators, and staff.

In addition to the formal workshops and seminars offered, technical assistance regarding
proposal development will be available to faculty, administrators, and staff of the
university.

Research Compliance Office
Development and staffing of the aforementioned Research Compliance Office and the
Research Compliance Advisory Committee will continue during the remainder of the
current academic year and will be fully operational by July 1, 2006.

b.     Designating a high-level Howard official to be accountable for ensuring effective
       compliance with Federal and NSF grant requirements. Preferably, this official
       should have authority to report directly to the President and/or to Howard’s
       Governing Board.

1.     Actions Taken Prior to Sept. 6, 2005

As previously noted, authority for a compliance officer was received prior to September
6, 2005.

2.     Actions Taken Since Sept. 6, 2005

As noted above, we have established a Research Compliance Office, reporting directly to
the Vice President for Research, with the interim assignment of some of the compliance
functions to the Office of the Internal Auditor to launch the program, specifically in the
areas of auditing and monitoring.

3.     Future Action Plans and Timeline for Completion

As described above, responsibility for the functions of the Research Compliance Office
has been temporarily assumed by the Office of the Internal Auditor.




                                            57
Recommendation 1.2: We recommend that the Directors of DIAS and DGA require
Howard to have an independent evaluation to validate that timely and appropriate
corrective actions are implemented to address recommendation 1.1 and all
recommendations in audit findings 2 through 5 of this report. Such an evaluation could
be performed as part of Howard’s annual OMB Circular A-133 audit.

1.     Actions Taken Prior to Sept. 6, 2005

No actions taken.

2.     Actions Taken Since Sept. 6, 2005

No actions taken.

3.     Future Action Plans and Timeline for Completion

The University will ask the incoming external auditors to review the progress of
corrective actions proposed in response to recommendations 1.1 and all recommendations
associated with findings 2 through 5 simultaneously with its annual OMB Circular A-133
audit. The University will make available to its external auditor this response and all
associated documents.

Recommendation 1.3: We recommend that the Directors for DIAS and DGA withhold
NSF grant funds if the independent evaluation in recommendation 1.2 discloses that
Howard has not implemented timely and appropriate corrective actions to address the
audit recommendations to ensure effective management controls over NSF awards.

1.     Actions Taken Prior to Sept. 6, 2005

No actions taken.

2.     Actions Taken Since Sept. 6, 2005

No actions taken.

3.     Future Action Plans and Timeline for Completion

As documented above and throughout this response, Howard University has developed a
comprehensive action plan and timelines to ensure that the results of the independent
evaluation will demonstrate timely and appropriate corrective actions taken to address all
of the audit recommendations.




                                           58
2.      COST SHARING

A.      Review of Findings

1.      Comments on Findings

Howard University has developed a system to identify, account for, monitor, and report
cost sharing effective July 1, 2005, and implementation is ongoing.

2.      Updates on Actions Taken Regarding Findings

The current accounting system (the Financial Records System) in place at the University
has the capacity to be used to account properly for cost sharing and can link cost-shared
expenses to specific NSF awards. We have designated a specific range of cost sharing
accounts in the unrestricted subsidiary ledger and are recording cost sharing for salaries
in FY06. (See Attachment 4: Requirements for Implementing Cost Sharing.) FY06 effort
reports will reflect cost sharing based on salary charges to these accounts. In addition, the
PeopleSoft modules, scheduled for implementation in FY07, have the required
functionalities to properly identify, record, and monitor cost sharing in accordance with
OMB Circular A-110 and Howard University policy for cost sharing.

The university has begun the process of implementing the aforementioned cost-sharing
system for all NSF grants. We have already implemented the system for certain grants
and will complete the implementation in the near future.

B.      Review of Recommendations

Recommendation 2.1: We recommend that Directors of DIAS and DGA require Howard
to establish:

     d. An accounting system required by the University’s cost sharing policy, that links
        cost shared expenses to specific NSF awards.
     e. Clear and specific responsibility for cost sharing compliance on NSF awards is
        assigned to Howard staff with Federal grant expertise.
     f. A process to ensure the integrity of annual certifications of cost sharing are
        submitted to NSF.

1.      Actions Taken Prior to Sept. 6, 2005

The university’s Cost Sharing Policy was effective as of June 1, 2005. (See Attachment
5: Cost Sharing Policy.)




                                             59
2.     Actions Taken Since Sept. 6, 2005

As noted above, we have begun to implement the cost sharing system and are recording
cost sharing for salaries in FY06. We have established cost sharing accounts for certain
NSF awards, and implementation will be completed in the near future.

3.        Future Actions Plans and Timeline for Completion

We have established clear and specific responsibility for cost sharing compliance on NSF
awards and have delineated these responsibilities in staff position descriptions. PIs are
assigned responsibility for obtaining documentation supporting cost sharing requirements
and providing these documents to grant accountants. In turn, grant accountants are
assigned specific responsibility to ensure that supporting documentation is adequate and
for recording cost sharing transactions in Howard University’s accounting system. The
Research Education and Technical Assistance section in the Office of Sponsored
Programs will require full training in cost sharing principles and accounting for all
Principal Investigators, Research Administrators, and Grant Accountants with cost
sharing responsibilities. As required, PIs and staff will be required to attend training
opportunities external to the university, and the use of external consultants will be
considered as appropriate.

We have established a process to ensure that annual certifications of cost sharing are
submitted to the NSF. Grant accountants are assigned responsibility for preparing the
certifications, and the Authorized Institutional Representative is responsible for
reviewing and signing the certifications. As noted above, the Office of Sponsored
Programs will require staff involved in cost sharing certification to enroll in appropriate
training.

3.     SUBAWARD MANAGEMENT AND MONITORING

A.        Review of Findings

1.        Comments on Findings

For the period of the audit 2000-2004, we do not disagree with the statement that
subaward management and monitoring need improvement.

     2.          Updates on Actions Taken Regarding Findings

In early 2004, the individual with the responsibility for the subawards in question was
replaced. In September 2005 (see below) more explicit provisions were added to the
subaward agreements to better delineate the responsibilities of both parties and facilitate
improved monitoring of subawards on the part of what was the Office of Research
Administration. (The new Office of Sponsored Programs will assume this function.)




                                             60
With regard to NSF grant No. HRD 0000273, the Principal Investigator for this ongoing
project has sent the attached letter to the subawardee institutions seeking to obtain the full
and complete documentation required for all expenditures including cost sharing
expenditures. (See Attachment 6: HRD 0000273 letter to subawardees.)

B.     Review of Recommendations

Recommendation 3.1: We recommend that Directors of DIAS and DGA require Howard
to establish subaward management procedures for NSF grants to:

a. Clearly identify and assign to Departments/PIs, ORA, and RFA their respective
responsibilities for all aspects of subaward management and monitoring including the
issuance of timely and accurate subaward agreements and amendments; assessment of
subrecipient risk of noncompliance with NSF and Federal grant requirements; and the
development of specific subrecipient monitoring plans based on such risk assessments.

1.     Actions Taken Prior to Sept. 6, 2005

With the approval and urging of the administration of Howard University, changes
described in more detail below were made to the subagreement template to address
directly and explicitly the issues raised by NSF. (See Attachment 7: Subagreement
Template.)

a)     The primary responsibility for subaward monitoring was assigned to the Office of
Research Administration and is so indicated in the agreement;

b)     The assessment of subrecipient risk of noncompliance is addressed in 3.1(b) and
(c) below. The issue is addressed with more detailed statements of work and the
development of specific subrecipient monitoring plans based on such risk assessments.

2.     Actions Taken Since Sept. 6, 2005

The actions described in (a) above have been implemented. Internal procedures for
subrecipient monitoring have been incorporated in the Manual for Research and Other
Sponsored Programs.

3.     Future Action Plans and Timeline for Completion

No further action is anticipated.




                                             61
b.     Modify standard Howard subaward terms and conditions to require (1) periodic
financial progress reports, (2) clear identification of the dollar amount of required cost
sharing, (3) documentation and reporting of required and actual cost sharing amounts,
and (4) budgetary restrictions on participant support/trainee costs, (5) Howard will
conduct regular and periodic on site audits of subawardees.

1. Actions Taken Prior to Sept. 6, 2005

   As noted previously, on September 5, 2005, the Howard University administration
   authorized and directed the review and revision of the standard subcontract templates.

2. Actions Taken Since Sept. 6, 2005

   In response to the subject recommendation, wording changes have been made to the
   University’s subcontract language. Each of the issues is being addressed with
   contract language, as follows:

1) Specific requirements for periodic financial reports will be included in Section 2.0,
the Scope of Work. Section 14.0, Reports and Information, refers to these requirements
in addition to all other requirements of the prime award, as follows:

SUBAWARDEE   SHALL FURNISH TO THE UNIVERSITY ALL PROGRESS REPORTS AND
INFORMATION REQUIRED BY THE SPONSOR OR SPECIFIED IN SECTION 2.0 IN
CONNECTION WITH THE SUBAWARDEE’S PERFORMANCE HEREUNDER.          SUCH
REPORTS AND INFORMATION SHALL BE SUBMITTED TO THE UNIVERSITY IN
ACCORDANCE WITH THE FOLLOWING SCHEDULE AND IN A FORM AND OF A QUALITY
THAT ARE CONSISTENT WITH THE REQUIREMENTS OF THE PRIME AGREEMENT.
[SPACE FOR SCHEDULE]

2) The dollar amount of required cost sharing will be prominently presented as one of
the parameters of the subagreement in Part D at the beginning of subaward, as follows:

COST SHARING AMOUNT TO BE CONTRIBUTED BY SUBAWARDEE: $______

This amount is referred to in other provisions of the subagreement (Sections 9.0 and
15.0).

In addition, this subagreement incorporates specific wording applicable to cost sharing in
Section 9.0(c), as follows:

THIS IS A COST SHARING AGREEMENT, AND SUBAWARDEE AGREES TO CONTRIBUTE
THE AMOUNT INDICATED IN PART D, ABOVE, TOWARD THE COSTS OF
ACCOMPLISHING THE WORK DESCRIBED IN SECTION 2.1.      THE FOLLOWING
PROVISIONS APPLY TO THE COST SHARING:




                                           62
•                 IF THE SUBAWARDEE’S COST PARTICIPATION INCLUDES IN KIND
CONTRIBUTIONS, THE BASIS FOR DETERMINING THE VALUATION FOR VOLUNTEER
SERVICES AND DONATED PROPERTY MUST BE DOCUMENTED AND APPROVED BY THE
UNIVERSITY
•                 [SUCH OTHER PROVISIONS AS MAY BE DEEMED APPROPRIATE]

3)             To make more explicit the requirement for documentation and reporting of
required and actual cost sharing amounts, the new language includes the following:

Subsection (b) has been added to Section 11.0, as follows:

(B)   THE SUBAWARDEE SHALL DOCUMENT ITS COST SHARING PARTICIPATION
WHEN INVOICES ARE SUBMITTED. SUBAWARDEE MAY USE THE ATTACHED FORM OR
AN INVOICE THAT PROVIDES COMPARABLE DETAIL AND DOCUMENTATION.

Subsection (b) has been added to Section 15.0, as follows:

SUBAWARDEE AGREES TO CONTRIBUTE COSTS IN THE AMOUNT INDICATED IN PART
D, ABOVE, TOWARD THE ACCOMPLISHMENT OF THE WORK DESCRIBED IN SECTION
2.1. SUBAWARDEE SHALL DOCUMENT AND MAINTAIN RECORDS OF ALL PROJECT
COSTS THAT ARE CLAIMED AS CONTRIBUTION TOWARDS COSTS, TO THE SAME
EXTENT AND IN THE SAME MANNER AS COSTS FOR WHICH SUBAWARDEE SEEKS
REIMBURSEMENT.     THE PROVISIONS SET FORTH IN SUBSECTION 15.0(A)
[PERTAINING TO RECORDS AND AUDITS] APPLY TO SUCH COSTS.

4) Participant support/trainee costs will be included in an approved budget for the
subaward. The new language in Section 9.0 is more explicit and emphasizes to a greater
extent the requirement that all expenditures must conform to the approved budget. The
following language is believed to address this issue with respect to all budgeted areas:

COSTS  INCURRED AND PAID BY THE SUBAWARDEE THAT ARE ALLOWABLE,
REASONABLE, AND PROPERLY ALLOCATED TO THIS SUBAGREEMENT WILL BE
REIMBURSED BY THE UNIVERSITY IN A MANNER AND TO AN EXTENT THAT IS
CONSISTENT WITH (1) OFFICE OF MANAGEMENT AND THE BUDGET (“OMB”)
CIRCULAR A-21, AND (2) THE SUBAWARDEE’S APPROVED BUDGET, ATTACHED
HERETO AS EXHIBIT          AND INCORPORATED HEREIN BY THIS REFERENCE.
EXPENDITURES INCONSISTENT WITH THE APPROVED BUDGET, INCLUDING ANY
REALLOCATION OF BUDGETED FUNDS, MUST BE APPROVED IN WRITING BY THE
UNIVERSITY TO QUALIFY FOR REIMBURSEMENT OR COST SHARING CREDIT.

These changes have now been incorporated into the University’s standard subagreement
template.




                                           63
3.        Future Action Plans and Timeline

       The University will monitor the results of the changes it has implemented and
continue to look for ways to improve its contracting processes and increase assurance of
compliance with all applicable requirements.

c.      Establish a formal process and assign clear Howard responsibility to ensure
appropriate corrective actions are implemented to address prior Howard OIA and A-133
audit findings and recommendations pertaining to subaward management.

1.        Actions Taken Prior to Sept. 6, 2005

On February 28, 2005, the Associate Vice Provost for Research and the Comptroller
jointly adopted a process for the review of A-133 compliance from subrecipients and the
initiation of necessary action in cases of A-133 findings in the subrecipient’s audit
reports.

This process is can be summarized as follows: the Office of the Associate Vice Provost
for Sponsored Programs has the responsibility for the collection of A-133 reports from
subrecipients; these are requested and collected as part of the execution of
subagreements, and are scanned and maintained in the directory F:\A-133 Audit
Requirements on the ORA network. The Office of the Associate Vice Provost for
Sponsored Programs conducts a semi-annual review to ensure that all such reports are
received.

When such a report contains a report of an audit finding, the Office of the Associate Vice
Provost for Sponsored Programs requests the subrecipient’s audit report, and upon
receipt, forwards the response to the Director of Grant/Contract Accounting with any
recommendations for action.

It should also be noted that Howard has been carefully monitoring the work of the
Federal Demonstration Partnership in particular concerning the collection of A-133
reports and audit reports where required, with the likelihood of simplified procedure for
the collection and maintenance of A-133 reports and audits.

Although Howard is not a member of the FDP, it is our intention to join at the next
membership period, expected in 2007, and subsequently to adopt the FDP model for the
monitoring of A-133 reports.

     2.        Actions Taken Since Sept. 6, 2005

This process was further modified as of February 3, 2006, and the modified agreement is
attached. (See Attachment 8: A-133 Compliance Policy.) The Associate Vice Provost for
Research and the Comptroller agree that should any action be initiated, the Comptroller
will report this action to the Associate Vice Provost for Research so that the latter will be
the repository for the history of any Howard action.



                                             64
3. Future Action Plans and Timeline for Completion

No further action is anticipated.

4.     FACULTY SALARIES

A.     Review of Findings

1.     Comments on Findings

We have no comment on the overall finding.

2.     Updates on Actions Taken Regarding Findings

As noted below, we have made and are making changes that address the findings in this
section.

B.     Review of Recommendations

Recommendation 4.1: We recommend that Division Directors for DIAS and DGA
require Howard to improve its internal controls over faculty salary charges to NSF
awards as follows:
   a. Howard should perform the required internal evaluation of its ERS processes to
   ensure the integrity of the system to produce after-the-fact activity reports that are
   timely, accurate for the reporting period, and evidence that faculty salary charges on
   NSF grants are in compliance with Federal cost principles.
   b. Howard should establish:
           • ERS reporting periods coincident with faculty appointment periods,
           • Timeframes to ensure timely processing of Personnel Recommendation
               Forms,
           • Annual employment contracts to document faculty base salary,
           • Procedures documenting current payroll procedures for faculty salaries,
               and
           • Procedures to account for faculty release time.
   c. Howard should clearly define and assign responsibility to university staff with
   Federal grant expertise to oversee and monitor faculty salary charges to NSF grants
   to ensure compliance with NSF and Federal requirements to include reviewing the
   accuracy and timeliness of Personnel Recommendation Forms and after-the-fact
   activity reports.
   d. Howard should revise its Faculty Workload Policy to require specific written
   agency approval for augmenting faculty compensation from NSF grant funds.




                                           65
1.      Actions Taken Prior to Sept. 6, 2005

The University became aware of potential problems concerning faculty salary charges to
sponsored research agreements during the early spring of 2005 and began taking remedial
action. Most notable among these was the review of Personnel Recommendation (PR)
forms in the Office of the Provost to assure consistency with the proposed budgets
submitted to the NSF and with applicable NSF and other federal requirements, such as
the two-ninths rule and the prohibition against supplemental salary payments without the
express approval of the sponsoring agency. From early summer 2005 onward,
recommendations that did not comply with the requirements were returned to the point of
origin for revision and resubmission. These included recommendations seeking
supplemental salary payments that lacked NSF written authorization and those that did
not comply with the two-ninths limitation on summer compensation.

Recognizing that the University’s Faculty Workload Policy may in part have accounted
for the possibility of inappropriate faculty salary charges to sponsored agreements, the
Office of the Provost also began a review of that document during the summer of 2005 to
identify passages that might be interpreted in ways that conflicted with federal
regulations and to revise them appropriately. The sections in the original document that
resulted in supplemental salary payments without written authorization by the sponsoring
agency have now been revised.

With respect to the Effort Reporting System (ERS), the Office of the Comptroller
performed periodic evaluations of the system’s processes, even if not strictly on an
annual basis, from the time it was implemented in 2002. The University also engaged a
consultant (XXXXXXX) to perform various enhancements. For example, the problem of
inaccurate effort reporting for faculty who work the nine-month academic year but elect
to be paid over twelve months was identified by management and discussed with the
consultant prior to September 2005.

     2. Actions Taken Since Sept. 6, 2005

Since September 2005, the University has continued the examination of faculty salary
charges. The ERS continues to undergo testing and modification. Computer program
changes were developed to fix the problem associated with nine-month faculty members
being paid over twelve months and the University is in the final stages of testing these
changes prior to applying them to the production version of ERS. Additionally, the
Director of Restricted Fund Accounting (RFA) has been instructed to monitor the ERS
process to ensure that activity reports are issued within 45 days of the end of the reporting
period and that each faculty member certifies the reports within the two weeks as
specified in the ERS User Manual. The reporting periods in the ERS User Manual and on
the Effort Certification Reports have been corrected and are now consistent with faculty
appointment periods specified in the Faculty Workload Policy. Finally, the Office of the
Comptroller has developed procedures for staff, managers, academic administrators, and




                                             66
end-users to assure the timely transmission and certification of Effort Certification
Reports following the end of each reporting period.

Efforts to improve the accuracy and timely processing of PR forms have been advanced
by the “Interim Guidelines for evaluating Personnel Recommendations of faculty
members conducting sponsored research,” approved by the President on January 10,
2006. (See Attachment 9: Interim Guidelines for Evaluating Personnel
Recommendations.) These guidelines, in addition to the timely initiation of PR forms by
principal investigators, should help to eliminate delays caused in the past by faulty
preparation of justification sheets and documents supporting PR forms. Finally, revised
policies and procedures regarding annual notice to each faculty member of his or her base
salary, the Faculty Workload Policy, and faculty release time have been developed.

The Office of Restricted Fund Accounting (RFA) had some years ago developed
procedures documenting the payroll process for charging faculty and staff salaries to
grants. RFA accountants, who possess the requisite expertise to ensure that NSF and
federal requirements are met, have responsibility for monitoring faculty salary charges to
all federal grants. (See Attachment 10: Procedures for Documenting Payroll Charges to
Grants.) The Director of RFA has been instructed to monitor this process to ensure
consistent and timely application of these procedures.

Finally, in response to the finding that $172,208 in cost-shared faculty and staff salaries
were improperly recorded and certified in activity reports, the Office of the Comptroller
has developed procedures for better tracking cost-shared portions of faculty salaries in the
budgeting and accounting system and in the Effort Reporting System. In short, a Budget
Recommendation form will transfer the appropriate budget for the cost-shared portion of
the faculty member's salary from the departmental salary account to the specially
designated cost-sharing account described earlier in this response. An accompanying
Personnel Recommendation form will result in salary charges to the cost-sharing account
and these, in turn, will be reflected on the Effort Certification Report.

Similarly, for other types of cost sharing, such as for scholarships, trainee costs, and
equipment, appropriate budget transfers will be made from the funding accounts (for
example, departmental budget accounts) to specifically designated cost sharing accounts
for each project

   3. Future Action Plans and Timeline for Completion

The University expects to be fully compliant with NSF and other government
requirements regarding faculty salary costs charged to the NSF by the start of the new
fiscal year on July 1, 2006. The specific objectives and timelines of completion for the
revised policies and procedures that have not yet been fully implemented are as follows:

       a.      Timeframes for the timely processing of Personnel Recommendations are
               being developed consistent with the impending PeopleSoft
               implementation.    In   the    interim, submission of Personnel



                                            67
               Recommendations according to the “Interim Guidelines for evaluating
               Personnel Recommendations of faculty members conducting sponsored
               research,” mentioned above, will improve the accuracy and timeliness of
               processing.
       b.      The revised policies and procedures regarding sections of the Faculty
               Workload Policy dealing with faculty compensation from sponsored
               research agreements, release time, and cost-sharing of faculty salaries will
               be distributed by April 1, 2006.
       c.      Formal notification to individual faculty members of their base salaries
               will begin immediately for persons with current sponsored research
               agreements and proceed to the rest of the University’s faculty. The notices
               will be updated again at the start of the new fiscal year on July 1, 2006.

Recommendation 4.2: We recommend that Division Directors for DIAS and DGA
resolve the $91,877 in unallowable faculty salary, and the associated fringe benefits and
Facilities and Administrative (F&A) costs of $46,918 identified by the audit. (See
Appendix B for Schedule of Unallowable Costs by NSF award number)

The University accepts the recommendation to work with the directors of the DIAS and
DGA to resolve the $91,877 in unallowable faculty salary and the associated fringe
benefits and F&A costs, while at the same time noting, as the report itself does, that the
University returned the $22,703 in duplicate faculty salary payments to the appropriate
grant on March 24, 2005. In response to the draft report's conclusion that the duplicate
salary payment went undetected in part because reallocations were made without
substantive justification from the PI or Project Director, the Office of the Comptroller
developed a Policy on Cost Transfers. (See Attachment 11: Cost Transfer Policy.) This
policy, to which all appropriate staff will be held strictly accountable, will assure that cost
transfers are timely, appropriate, and properly authorized.

5.     NON-STUDENT STIPENDS

A.     Review of Findings

1.     Comments on Findings

Howard University does have systems, policies, and procedures requiring the
maintenance of adequate source documentation for payment of stipends, including travel
stipends. We acknowledge the finding that the PI was not able to produce complete
documentation for the stipends paid; however, the University procedures for requesting
such payments do require that such documentation be provided. The double payment of
stipends appears to have resulted from an error in the processing of documents and a
failure to follow University policies.

As noted above, the certification program being developed by the new Research
Education and Training section will require all PIs to receive training in federal and
university policies and procedures, including what constitutes adequate documentation



                                              68
and the requirement to provide it to support payments. Sanctions will be applied by the
Research Compliance Office to PIs who fail to follow such procedures. In addition,
personnel in the Grant/Contract Accounting section will also be required to attend
workshops and receive certification to ensure their understanding of federal and
university policies and procedures regarding appropriate documentation.

2.     Update on Actions Taken Regarding Findings

Because the double payments were noted considerably after the fact, the PI had limited
ability to effect the return of the funds to the grant at the time. The PI did attempt to
contact the individuals who received double payments after the payment was noted, but
the PI was unable to obtain a response or recover any funds.

B.     Review of Recommendations

Recommendation 5.1: We recommend that the Directors for DIAS and DGA require
Howard to develop procedures for maintaining adequate source documentation in their
accounting records to support stipends paid to outside participants. This should include
a tracking system that identifies the purpose of the stipend payment to ensure duplicate
payments are not made to trainees.

1.     Actions Taken Prior to Sept. 6, 2005

No actions taken.

2.     Actions Taken Since Sept. 6, 2005

As noted below and in the response to Finding 1, Howard University will develop and
implement a Research Education and Technical Assistance section within the Office of
Sponsored Programs.

3.     Future Action Plans and Timeline for Completion

As stated in the response to Finding 1, Howard University will develop and implement a
Research Education and Technical Assistance section within the Office of Sponsored
Programs that will ensure that principal investigators are aware of and follow the research
policies and procedures of the University. Personnel from all units related to grants and
contracts will be required to attend training, and Principal Investigators will be made
aware that failure to comply with regulations will result in the recommendation of
sanctions by the Research Compliance Office.

The Manual for Research and Other Sponsored Programs clearly presents requirements
for documenting student stipends and travel costs and delineates policies governing
student travel advances. All such policies are in strict compliance with NSF regulations.




                                            69
Recommendation 5.2: We recommend that the Directors for DIAS and DGA resolve the
$2,800 in unallowable FY 2004 student payments (See Appendix C for Schedule of
Unallowable Student Stipends).

1.     Actions Taken Prior to Sept. 6, 2005

The Principal Investigator attempted to recover the duplicate payments, but was
unsuccessful due to the large amount of elapsed time between the payments and the
discovery of the error. The Principal Investigator contacted the recipients by telephone
and email, and even attempted to visit one recipient at his place of work, where she
discovered that he was no longer employed. She received no response in other cases.

2.     Actions Taken Since Sept. 6, 2005

No further actions taken.

3.     Future Action Plans and Timeline for Completion

The University accepts the recommendation to work with the directors of the DIAS and
DGA to resolve the $2800 in unallowable FY 2004 student payments in a manner
acceptable to NSF.




                                           70
